<html>
<title> - FEDERAL BUREAU OF PRISONS OVERSIGHT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  FEDERAL BUREAU OF PRISONS OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2009

                               __________

                           Serial No. 111-89

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
51-223                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
LUIS V. GUTIERREZ, Illinois          TOM ROONEY, Florida
BRAD SHERMAN, California             GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida
MIKE QUIGLEY, Illinois

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 21, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

The Honorable Dennis A. Cardoza, a Representative in Congress 
  from the State of California
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
Mr. Harley G. Lappin, Director, Federal Bureau of Prisons, U.S. 
  Department of Justice, Washington, DC
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
Mr. Reginald A. Wilkinson, President & CEO, Ohio College Access 
  Network, Columbus, OH
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47
Mr. Philip Fornaci, Director, DC Prisoners' Project, Washington 
  Lawyers' Committee for Civil Rights & Urban Affairs, 
  Washington, DC
  Oral Testimony.................................................    49
  Prepared Statement.............................................    53
Mr. Richard A. Lewis, Senior Manager, ICF International, Fairfax, 
  VA
  Oral Testimony.................................................   156
  Prepared Statement.............................................   159
Mr. Stephen R. Sady, Chief Deputy Federal Public Defender, 
  Portland, OR
  Oral Testimony.................................................   165
  Prepared Statement.............................................   167
Mr. Phil Glover, Legislative Coordinator, American Federation of 
  Government Employees, Johnstown, PA
  Oral Testimony.................................................   186
  Prepared Statement.............................................   190

                                APPENDIX

Material Submitted for the Hearing Record........................   219


                  FEDERAL BUREAU OF PRISONS OVERSIGHT

                              ----------                              


                         TUESDAY, JULY 21, 2009

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Lofgren, Jackson 
Lee, Gohmert, Poe, and Goodlatte.
    Staff present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Jesselyn McCurdy, Counsel; Karen Wilkinson, (Fellow) 
Federal Public Defender Office Detailee; Joe Graupensperger, 
Counsel; Veronica Eligan, Professional Staff Member; (Minority) 
Caroline Lynch, Counsel; Kimani Little, Counsel; Robert Woldt, 
FBI Detailee; Kelsey Whitlock, Staff Assistant.
    Mr. Scott. The Subcommittee on Crime, Terrorism, and 
Homeland Security will now come to order.
    I would like to welcome you today to the oversight hearing 
on the Federal Bureau of Prisons. The Subcommittee will examine 
a number of topics related to the responsibilities of the 
prison. And one of the topics I am particularly interested in 
hearing our witnesses discuss today is the Federal Prison 
Industries program.
    The Federal Prison Industries, or FPI, inmate work program 
also known as UNICOR, is very important for public safety, 
prison management and cost-effectiveness, by assisting in 
rehabilitation and post-release employment prospects of former 
offenders. The objective of FPI is to encourage the 
rehabilitation of offenders by improving their work skills and 
work habits while they are incarcerated.
    All able-bodied inmates are required by Federal law to 
work. About 85 percent of the work in prisons constitutes 
assigned jobs for which they earn about 12 to 40 cents per 
hour. FPI inmates can earn up to $1.15 an hour. To be eligible 
for this program, or even be on the waiting list for the 
program, an inmate must be of good conduct and have graduated 
from high school or be currently making progress toward 
acquiring a GED.
    No more than 40 cents an hour can be earned by an inmate 
who has not graduated from high school or acquired a GED. Thus, 
it is a great incentive, not only for good order and decorum in 
the prison, but also for educational achievement.
    Therefore, it is no surprise to show that the FPI graduates 
are 35 percent less likely to reoffend and 14 percent more 
likely to be employed 1 year after release. Inmates who have 
participated in FPI are 24 percent less likely to recidivate as 
long as 12 years after their release than those who had not 
participated in a work program.
    But limiting the losses of FPI jobs is not simply an 
academic exercise, but it is also vital to maintaining safety 
and order within the prisons, rehabilitating the offender, 
keeping the public safe and saving the taxpayers money.
    However, over the last 8 years, the number of inmates 
participating in the FPI program has declined significantly. As 
recently as last year, an amendment to the National Defense 
Authorization Act eliminated the mandatory source requirement 
for purchases of FPI products by the Department of Defense.
    On July 15, the Bureau of Prisons announced that it has 
begun closing FPI factories at 14 prisons and scaling back 
operations in four others. According to BOP, the FPI has lost 
$20 million this year, and BOP officials expect that 1,700 
inmates will lose their jobs as a direct result of the factory 
closings.
    Fewer inmates in FPI means not only less efficient and less 
safe prisons, but eventually more victims of crime from 
prisoners released without the FPI experience.
    Another topic I am interested in hearing from the BOP is 
the implementation of the Second Chance Act. In 2008, Congress 
passed the Second Chance Act to provide resources to the BOP 
and to State and local governments to better address the 
growing number of ex-offenders returning to communities around 
the country. The law directs the BOP to asses inmate skills 
upon entry to prison, generate a skills development plan and 
ensure that priority is given to a high-risk prison population.
    I am pleased to hear that BOP is currently in the process 
of developing the Inmate Skills Development Strategy, which is 
required by law in order to ascertain prisoner skills upon 
incarceration and provide programming based on that assessment.
    I would like to hear more about the skills assessment and 
how the bureau plans to assist inmates to make a smooth re-
entry back to society.
    The Second Chance Act authorized the BOP to begin an 
inmate's transition into the community up to 12 months before 
their release date. The act authorized BOP to begin releasing 
inmates to half-way houses, as early as 12 months before the 
end of their sentences, with the understanding that, after the 
completion of a half-way house program, individuals would 
transition to home confinement or gradual release programs for 
the remainder of their sentence.
    I am interested to learn how this is progressing, as it 
would not only be better for inmates to transfer, but could 
substantially relieve prison overcrowding. Of course, the BOP 
is required to consider public safety in making releases to 
half-way houses or other community supervision programs, and 
the new authorities do not diminish their responsibility.
    Considering that it costs a little less to house inmates in 
half-way houses toward the end of their sentences, and that it 
helps them re-enter society successfully, I look forward to 
hearing how the BOP is utilizing their new authority to address 
costs and improve re-entry success.
    Another important area of authority given to BOP is the 
area of drug treatment. When offenders do not address their 
alcohol and drug addictions, it often results in these 
individuals becoming repeat offenders. The bureau's Residential 
Drug and Alcohol Program provides drug treatment and after-care 
services for offenders who are convicted of non-violent crimes.
    As incentive to encourage inmates to participate in drug 
addiction treatment while they are in prison and to recognize 
the impact of the program, the BOP has the authority to give a 
year off the sentence of an eligible offender who successfully 
completes the program. However, I understand that BOP does not 
give offenders the full year of sentence reduction, and I am 
interested in understanding why inmates are not benefiting from 
the full reduction of their sentence.
    There have been also criticisms of how the BOP determines 
eligibility for the program within its discretion. I am also 
interested in understanding how BOP determines who is non-
violent and, therefore, eligible for the program.
    Other important implementation and management issues will 
be discussed by our witnesses, and I look forward to their 
testimony.
    For today's oversight hearing, we have three panels of 
witnesses. The first panel will consist of our colleague, the 
gentleman from the 18th District of California, Congressman 
Dennis Cardoza. The bureau's director, Harley Lappin, will 
testify in the second panel with two of his colleagues from 
BOP. And the final panel will include advocates of Federal 
prison issues and a representative from the correctional 
officers union.
    I will now recognize the esteemed Ranking Member of the 
Subcommittee, the gentleman from Texas, Judge Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    This is important that we have this hearing. We have not 
had one in a while. And oversight is such an important 
responsibility and, perhaps, one of our most important 
functions.
    The Federal Bureau of Prisons, or BOP, was established in 
the 1930's to provide better care for Federal inmates, to 
professionalize the prison service, and to ensure consistent 
and centralized administration of the Nation's Federal prisons.
    Today, the BOP consists of 115 corrections institutions and 
28 community corrections offices. Administration of the BOP is 
handled by regional offices, and the headquarters uniquely 
provides oversight and support to bureau facilities and 
community corrections offices. As many of you know, the 
community corrections offices oversee residential re-entry 
centers and home confinement programs.
    Presently, the BOP is responsible for the custody and care 
of more than 204,000 Federal offenders. BOP employs 
approximately 36,000 employees, who have the mutual goal of 
protecting public safety by ensuring that Federal offenders 
serve their sentences in a safe, secure and efficient facility.
    In addition to securely maintaining Federal facilities, the 
BOP also has programs that help to reduce the potential for 
future recidivism. Federal inmates are encouraged to 
participate in a range of educational, vocational and faith-
based programs, including the Life Connections and Threshold 
programs.
    Under the Second Chance Act, Congress imposed new 
requirements on the BOP to facilitate the successful re-entry 
of offenders back into their communities. Among those 
requirements are the establishment of recidivism reduction 
goals and increased collaboration with State, tribe or local 
community and faith-based organizations to improve the re-entry 
of prisoners.
    BOP is currently developing an Inmate Skills Development 
Strategy as required by the Second Chance Act to assess 
prisoner skills upon incarceration and provide programming 
based on that assessment to fill skills deficits and address 
other re-entry needs.
    I and other Members of the Subcommittee look forward to 
hearing about the present and future results of these efforts, 
or, in some cases, the lack or failure of efforts as required. 
In that regard, we really appreciate Representative Cardoza 
being here today.
    We know this is a matter of personal interest to you, 
especially after what has occurred at the prison. And I just 
really appreciate you taking such a personal interest, and I am 
grateful for that input.
    There are, obviously, many problems that still exist within 
the Federal prison system. According to the union that 
represents many BOP correctional officers, Federal facilities 
are becoming increasingly overcrowded with offenders.
    Further, the BOP system is currently staffed at about 87 
percent level, which is much lower than the 95 percent staffing 
levels of the mid-1990's. This overcrowding and alleged 
understaffing is creating dangerous situations for some Federal 
facilities. Anecdotal evidence from correctional officers 
alleges a rise in inmate-on-inmate and inmate-on-officer 
assaults.
    I think Representative Cardoza will address that, as well. 
One recent assault against a correctional officer was widely 
reported, and that is the one I anticipate hearing 
Representative Cardoza talk about.
    Although other officers quickly responded in that case, the 
wounds Officer Rivera received were terrible, and to which he 
later succumbed. We look forward to hearing more about that 
incident.
    I understand the BOP has reviewed the suggestions, and has 
implemented some additional safety measures for correctional 
officers that followed Officer Rivera's death.
    Since we as a Nation ask BOP correction officers to secure 
our Federal prison facilities and the dangerous offenders 
housed within them, Members of Congress, as representatives of 
the citizens, must ensure that the BOP has the resources it 
needs to accomplish this mission.
    We also know that, for the sake and safety of American 
citizens, recidivism must be reduced. We also know that 
mentoring and follow up after prison has helped create dramatic 
reductions in recidivism when it has been allowed by faith-
based groups. Now we are told by BOP such follow up is 
prohibited by BOP policy, which cannot be changed until unions 
agree to it.
    The Second Chance Act requires the follow up be permitted. 
So, it will be important to know for sure whether it is BOP, 
unions, or both, or some other factor, which is intentionally 
violating the law and causing untold crimes against Americans 
by refusing to utilize the required and proven method of 
reducing recidivism.
    I look forward to hearing from the BOP officials and 
representatives of correction officers, and also from the other 
witnesses.
    Again, thanks again, Congressman Cardoza, for being here.
    Mr. Scott. Thank you.
    We have been joined by the Chairman of the full Committee, 
the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Scott and Judge Gohmert.
    I think this is an important hearing--and I am happy that 
we are here starting off with our colleague, Dennis Cardoza--
which is an overcrowding problem that I hope will be addressed 
right off the bat.
    The Bureau of Prisons has a number of problems. I am sorry 
I did not catch both of the opening statements. But the prison 
medical facilities; the inability to get formulary discounts on 
drugs; the violation of proper staffing of the prison 
facilities; the whole idea of private prisons, whose cost-
effectiveness is now being called into question, since nobody 
is measuring it; the fact that some legal defender groups have 
to sue to get health care for men and women that are 
incarcerated--all these are problems.
    I am interested in finding out from my colleagues about 
whether the faith-based programs include the Muslim faith, 
which in the African-American incarceration, there is a huge 
number of converts there for some reason. I have never quite 
understood how that happens, or why it is happening. And I am 
not criticizing it at all.
    The failure of the Bureau of Prisons to enforce and 
implement existing procedures--so, we have got a lot of 
problems. I am so proud of the Committee for taking this up, 
and I yield back the balance of my time.
    Mr. Scott. Thank you. I thank the gentleman for joining us 
today.
    Our first witness will be Representative Dennis Cardoza, 
serving his fourth term in Congress representing California's 
18th District. He serves as Chair of the House Agriculture 
Committee's Subcommittee on Horticulture and Organic 
Agriculture. He also serves on the Subcommittee on Livestock, 
Dairy and Poultry, the Subcommittee on Conservation, Credit, 
Energy and Research, and the House Rules Committee.
    He is testifying today, because of his intense interest 
about problems at Atwater Penitentiary in his district.
    Mr. Cardoza?

TESTIMONY OF THE HONORABLE DENNIS A. CARDOZA, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Thank you, Chairman Scott, Chairman Conyers, 
Mr. Gohmert and all the Members of the Committee.
    Thank you for having me here today to discuss an issue of 
such significant personal and professional importance to me: 
congressional oversight of our Federal prison system.
    As you know, just over a year ago, two inmates viciously 
attacked and killed Correctional Officer Jose Rivera at the 
Atwater Penitentiary in my congressional district. Officer 
Rivera was a 4-year veteran of the Navy, had completed two 
tours of military duty in Iraq.
    He began his career at the Bureau of Prisons as a 
correctional officer on August 5, 2007, and was in his 
probationary year, when he was senselessly murdered by two 
inmates in the housing unit he was supervising.
    This tragic event rocked our community to its core, 
sparking outrage and shedding additional light on significant 
funding shortfalls plaguing our Federal prison system.
    In response to this tragedy, a grassroots-led community 
organization was formed in my home community of Atwater, to 
advocate on behalf of correctional officers at the United 
States Penitentiary Atwater and around the country. I am proud 
to report that the Friends and Family of Correctional Officers 
now has over 1,000 members.
    Last night, during a telephone town hall meeting I had with 
my constituents in Merced County, the issue was raised, and it 
demonstrates that the tragedy still remains high in the minds 
of my constituents.
    While it is unclear whether Officer Rivera would be alive 
today were the institution fully staffed, I think we can all 
agree that Congress has a responsibility to ensure a tragic 
event like this never takes place again in our Nation's 
prisons.
    Congress simply can and must do more to provide the Bureau 
of Prisons with greater resources and to ensure our 
correctional officers have the tools and the training they need 
to safely and efficiently do their jobs.
    Across the Nation, staffing levels are decreasing while 
inmate populations are steadily on the rise, leaving 
correctional officers vulnerable. Over the last 20 years, the 
inmate population of the Federal prison system has increased by 
nearly 250 percent, while staffing has increased by less than 
125 percent.
    In my district, in Atwater, the Atwater Penitentiary is 
operating at 86 percent of the necessary staffing levels to 
watch over an inmate population 25 percent over capacity. 
Nationwide, the inmate-to-staff ratio is 4.9 to one, as 
contrasted with the 1997 number of 3.7 to one.
    While I understand our correctional officers will always be 
subject to a certain level of risk, I strongly believe that 
increases in staffing levels will significantly reduce this 
threat. During my tenure in Congress, I have advocated for 
adequate funding for the Bureau of Prisons and sufficient 
resources for our Nation's correctional officers to perform the 
difficult and dangerous work they do.
    Finally, I believe we are coming to be on the right track. 
Last month, the House passed the fiscal year 2010 CJS bill. It 
provides an increase of $481 million above the fiscal year 2009 
level for BOP salaries and expenses. These additional funds 
will enable the Bureau of Prisons to hire over 1,000 additional 
correctional officers and activate two newly constructed 
prisons.
    I have regularly communicated my concerns regarding the 
status of these facilities to Director Lappin. In particular, I 
have highlighted my concerns about inmate assault levels, 
overcrowding and understaffing in our prison facilities. Last 
July, I introduced legislation to provide all Federal 
correction officers with stab-resistant vests to help our 
correctional officers from future inmate assaults.
    Without delay--and I thank him for it--Director Lappin 
responded by enacting policy changes to provide all 
correctional officers with stab-resistant vests, to give local 
penitentiaries greater control over inmates, and to supply 
penitentiaries with additional staff during evening and weekend 
watch. While not perfect, this is certainly a step in the right 
direction.
    Last month, I wrote Director Lappin, highlighting my 
concerns with the findings of the recently released Department 
of Justice Board of Inquiry Report, the official review of 
operations at USP Atwater leading up to Officer Rivera's death. 
The report reveals numerous concerns, including insufficient 
staffing levels, inadequate training of staff, a lack of 
accountability for inmate offenses and other issues which, had 
they been properly addressed by the previous warden, may have 
prevented the death of Officer Rivera.
    I would like to just share with the Committee that I had 
sent this prior warden a letter of my concerns, and it had 
never been addressed when--and I repeated calls to this warden, 
and did not get action. The new warden is doing a much better 
job.
    While I continue to be concerned with the insufficient 
staffing levels and overall safety levels at USP Atwater, 
Director Lappin has assured me that operations have 
substantially improved under the leadership of the warden I 
just spoke of, Hector Rios. I will continue to monitor the 
operations at our penitentiary in Atwater, and will keep the 
Committee updated.
    The last issue I would like to raise is regarding non-
lethal weapons for correctional staff.
    In April of 2009, I introduced legislation that directs the 
Bureau of Prisons to conduct a pilot program to determine the 
effectiveness of issuing pepper spray to correctional staff. 
The bill also directs the GAO to report to Congress on a pilot 
program and to report on tools to improve officer safety in 
Federal prisons. While this bill is not a silver bullet 
solution for the problems affecting correctional officers in 
our Federal prisons, I believe it takes important steps to 
determine whether our correctional officers have the tools they 
need to effectively do their jobs.
    Once again, Mr. Chairman, I want to thank you for inviting 
me to testify today. I look forward to working with you to 
explore practical solutions to ensure that our Nation's prisons 
and our communities are safe. I am happy to answer any 
questions you might have.
    [The prepared statement of Mr. Cardoza follows:]

        Prepared Statement of the Honorable Dennis A. Cardoza, 
       a Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you. And I thank you for bringing these 
concerns to our attention. And the director will be testifying 
right after you, so perhaps he could answer some of these 
questions.
    Mr. Conyers. Mr. Chairman?
    Mr. Scott. The gentleman from Michigan?
    Mr. Conyers. Could we ask the distinguished colleague of 
ours from California, if he feels like it, to submit both the 
letters he has written to both of the wardens----
    Mr. Cardoza. I would be happy to.
    Mr. Conyers [continuing]. And any responses he may have 
received?
    Mr. Cardoza. I would be happy to submit those to the 
Committee.
    Mr. Scott. And they will be made part of the record.*
---------------------------------------------------------------------------
    *The information referred to was not available to the Committee 
prior to the printing of this hearing record.
---------------------------------------------------------------------------
    The gentlelady from California?
    Ms. Lofgren. I would just note, first, I am sorry I was 
slightly delayed, but I had the benefit of reading the written 
testimony.
    And I appreciate Congressman Cardoza's advocacy for his 
district, not only in many other ways, which I am very familiar 
with as chair of the California Democratic Delegation, but for 
his constituents who are employees in this important Federal 
facility, that their safety should be in our minds. And I 
wanted to note, Congressman Cardoza is well known as an 
advocate for his constituents. And once again, he shows that.
    So, thank you, Mr. Chairman.
    Mr. Cardoza. Thank you, Ms. Lofgren.
    Mr. Scott. The gentleman from Texas?
    Mr. Gohmert. I will look forward to seeing those letters. 
You know, it is our job to have oversight. And I really--you 
know, we always say thank you for holding this hearing, but 
this is critical that we do adequate oversight over something 
so important.
    But for you to have seen the need before the terrible event 
happened with Officer Rivera, and had called that to people's 
attention, I know is of no comfort to you to say ``I told you 
so.'' But thank you for your sensitivity.
    And the bill, I was not familiar with the bill that you had 
introduced before, but I sure would be interested in seeing 
that. I would like to work with you in any way we could on it.
    Mr. Cardoza. Thank you, Mr. Gohmert.
    I will tell you that it is always dangerous for--you know, 
I ran a small business. And when you do not listen to your 
staff, you are going to get yourself in trouble, whether you be 
a small business owner or the warden of a prison.
    And clearly, the prior warden did not listen to his staff, 
so they called their local congressman and started complaining 
about the situation in Atwater. When I wrote to him, and then I 
called him, he did not respond as well.
    And I have not always gotten my way as a congressperson, 
but I have never had a situation where the person that I was 
trying to make an inquiry with would not return my phone calls, 
when I directly placed those calls.
    I will tell you that after the incident, I called Director 
Lappin, and he was very responsive to me, and always has been 
since then. And I appreciate the working relationship I have 
with him.
    And the new warden is fantastic. I have met with him 
several times. The officers think he is moving in the right 
direction. And we are very grateful for the change that Mr. 
Lappin has made at Atwater.
    And so, while I want to be critical of what happened in the 
past, I certainly understand the challenges the Bureau of 
Prisons have. And the whole purpose of this hearing, as the 
Chairman said, is to try and improve the situation for all 
concerned.
    Mr. Gohmert. Thank you.
    Mr. Scott. The gentleman from Texas?
    Mr. Poe. Just brief comments. Thanks for coming by and 
sharing these concerns with you.
    We have a lot of Federal prisons down in Texas, Southeast 
Texas, that I represent. And concerns that you have talked 
about, I think are universal to staff, the guards, the ones 
that do the hard work in those prisons. I think those are the 
toughest--that is the toughest beat in America----
    Mr. Cardoza. Absolutely.
    Mr. Poe [continuing]. Guarding those Federal prisoners in 
our prisons, sometimes without any public support for the hard 
jobs.
    I have been through those prisons. I would not last as a 
guard on one shift. So, I admire those people who have chosen 
that to be their profession. And I totally agree. Congress has 
a responsibility to provide a safe workplace for those people. 
They are not exactly, you know, guarding jaywalkers.
    So, thanks for being here.
    Mr. Cardoza. Thank you, Mr. Poe. Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    Our second panel for today's hearing is the Federal Bureau 
of Prisons director, Harley G. Lappin. He is a career public 
administrator in the Federal Bureau of Prisons and the seventh 
director of the agency. He is responsible for the oversight and 
management of the bureau's 114 institutions and of the safety 
and security of more than 200,000 inmates under the agency's 
jurisdiction. He received a B.A. degree in forensic studies 
from Indiana University and a master's degree in criminal 
justice and corrections administration from Kent State 
University.
    Mr. Lappin, it is good to see you today.

  TESTIMONY OF HARLEY G. LAPPIN, DIRECTOR, FEDERAL BUREAU OF 
      PRISONS, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Lappin. Mr. Chairman, it is a pleasure to be here. We 
appreciate the support of the Committee, and look forward to 
chatting with you about a number of issues today.
    Joining me to support me in responding to questions is 
Admiral Newton Kendig, who is the Assistant Director of the 
Health Services Division for the Bureau of Prisons. He oversees 
all of the medical services' policies, budget and 
implementation for the 207,000 inmates.
    To my right is Paul Laird, Assistant Director of our 
Industries, Education and Vocational Training, as well the 
Chief Operating Officer of Federal Prison Industries. And it is 
a pleasure to have the two of them joining me this morning.
    Good morning again, Chairman Scott, Ranking Member Gohmert, 
Chairman Conyers, and other Members of the Subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss a variety of issues that present significant challenges 
for the Federal Bureau of Prisons.
    All of our programs, services, and operations are affected 
by the number of inmates we are required to confine and the 
number of staff we have to provide these programs and services. 
In recent years, the growth in the inmate population has far 
outpaced BOP bed space, capacity, and staffing.
    Correctional administrators agree that crowded prisons 
result in greater tension, frustration and anger among the 
inmate population, which leads to conflicts and violence. And 
we are confining an increasing number of inmates who are more 
prone to violence and disruptive activity, and more defiant to 
authority.
    In order to reduce crowding, we must do one or more of the 
following: construct additional institutions and fund the 
necessary positions and other operating costs; expand inmate 
housing at existing facilities; contract with private prisons 
for additional bed space; or reduce the number of inmates or 
the length of time inmates spend in prison.
    Higher levels of crowding and reduced staffing limit our 
ability to prepare inmates for re-entry into the community. 
Many inmates are being released without the benefit of programs 
that enable them to gain the skills and training necessary to 
reintegrate successfully.
    As an example of the problem we were facing, for the last 2 
fiscal years we have been unable to meet our statutory mandate 
to provide residential drug abuse treatment to all eligible 
inmates. The waiting list for other inmate programs continues 
to grow, as our staffing levels remain lower than necessary to 
maintain adequate programming opportunities for inmates.
    We have other challenges that have significant impact on 
Bureau operations--health care, for one. We provide quality, 
medically-indicated health care services to all inmates in 
accordance with proven standards of care.
    However, not all medical services that inmates desire are 
deemed medically necessary. In order to provide consistency and 
maximize cost-effectiveness, elective health care services are 
provided to inmates on a case-by-case basis.
    Many Federal offenders come to prison having led unhealthy 
lives. These offenders have histories of drug or alcohol abuse, 
and have longstanding medical and dental concerns which they 
have neglected. As a result, inmates typically have greater 
health care needs than the average citizen.
    Through a variety of initiatives, we have been able to 
control in-house health care costs to a significant degree. 
However, we rely heavily on contractual medical services, and 
it is primarily the rising cost of health care in the community 
and the cost of pharmaceuticals that are driving up our overall 
health care costs.
    Traditionally, Federal prisons have offered a wealth of 
inmate programs to provide opportunities for inmates to gain 
important skills and training. We want inmates involved in 
meaningful programs. We know that inmates who participate in 
Federal Prison Industries, vocational or occupation training, 
education programs, or residential drug abuse treatment 
programs are significantly less likely to recidivate.
    Unfortunately, we have a limited number of jobs and program 
opportunities. Increasing crowding has made it difficult to 
keep all inmates working in full-day job assignments.
    Our most important re-entry program--or one of them--
Federal Prison Industries, is dwindling rather than expanding. 
We operate FPI factories primarily at our medium-security and 
high-security institutions, where we confine the most violent 
and criminally-sophisticated offenders. Working in FPI keeps 
inmates productively occupied, thereby reducing the opportunity 
for violent and other disruptive behavior. Work in FPI also 
teaches inmates, as you referenced earlier, valuable job skills 
and a work ethic, and it does so without the use of 
appropriated funds.
    FPI's worker levels and earnings have dropped significantly 
in fiscal years 2008 and 2009, due to various provisions of the 
Department of Defense authorization bills and appropriations 
bills that have weakened FPI's standing in the Federal 
procurement process, along with administrative changes taken by 
the FPI Board of Directors.
    These changes, coupled with the downturn in the economy and 
the significant reduction of products needed to support the war 
effort, has had a serious negative impact on FPI.
    Last week, we began the process of closing or downsizing 19 
FPI factories, resulting in the loss of approximately 1,700 
inmate jobs, which is nearly 10 percent of the FPI inmate 
workforce. Additionally, FPI has reduced the number of work 
hours for many of the inmates, a practice that began several 
months ago to further reduce costs.
    In order to increase inmate opportunities to work in FPI, 
new authorities are required to expand product and service 
lines. Absent any expansion of FPI, the BOP would need 
additional resources to create work and training opportunities 
for inmates to prepare them for successful re-entry into the 
community.
    Again, Chairman Scott, Ranking Member Gohmert, it is a 
pleasure to be here. We look forward to answering questions you 
may have of us.
    [The prepared statement of Mr. Lappin follows:]

                 Prepared Statement of Harley G. Lappin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you, Director Lappin.
    First, let me ask a question on--I guess it is a medical 
question. There is a barbaric practice in some institutions, 
requiring the physical restraint of women who are in labor. 
Now, what is the policy of the Bureau of Prisons?
    Mr. Lappin. Our policy is not to restrain women who are in 
labor or in the process of delivering of child. This has been 
the case for many years.
    There are, obviously, exceptions that Dr. Kendig can 
reference. But this has not only been an issue for the Bureau 
of Prisons, but corrections in general. And so, we make it a 
practice not to restrain female offenders who are in labor.
    And, in fact, I happen to be the chair of the standards 
committee for the American Correctional Association. And the 
American Correctional Association recently took this up, as 
well.
    Many institutions--not only Federal, but State and local--
are accredited. They have recently passed a new standard 
addressing this issue and giving direction as to, if, in fact, 
there is a need for a restraint, that there would be an 
appropriate medical authority who would provide guidance 
regarding what restraints, if any, would be allowed.
    But, Dr. Kendig, why don't you expand on that. I know you 
have done some checking here recently with our staff at 
Carswell, who probably oversee the majority of the women in the 
Bureau of Prisons who are pregnant and ultimately give birth.
    Admiral Kendig. I did review with our clinical director at 
Carswell, which is our medical center for female inmates, and 
where the majority of our inmates who are pregnant are cared 
for by obstetricians, and then delivered in community 
hospitals. And they did confirm with me that, during delivery, 
they do not use any kind of custodial restraints.
    Any restraints that would be medically indicated would be 
for inmates who may be mentally ill and psychotic during 
delivery. That would be very, very unusual. And we would use 
restraints in accordance with medical protocols. They would not 
be custodial in nature.
    Mr. Scott. Thank you.
    On medical care, what oversight do you have to make sure 
that inmates are getting the appropriate medical care?
    Admiral Kendig. All of our facilities are accredited by the 
ACA, the American Correctional Association. And they have 
performance-based standards for medical care that are used to 
assess the health care that we deliver.
    We also have our facilities classified as care one, two, 
three, or four, based on their ability to provide medical care, 
with our care four facilities being our medical centers, care 
one being healthy institutions. The care two, three, and four 
facilities, where the majority of our chronically ill inmates 
are housed, are accredited by the Joint Commission.
    And then, internally, we have a Program Review Division 
with standards, that goes in to see if we are implementing the 
policies and the clinical practice guidelines that we have 
established nationally.
    Mr. Scott. Are all of the institutions up-to-date on their 
accreditation?
    Admiral Kendig. Yes, sir.
    Mr. Lappin. Let me add one thing. There is also an 
Administrative Remedy Program in the Bureau of Prisons, by 
which an inmate can complain or provide a grievance to the 
warden, and it would work its way up through the Regional 
Director, and ultimately to the Central Office. That, too, 
alerts us to concerns that inmates have regarding medical care. 
I know that Dr. Kendig gets involved in responding to those and 
agreeing with the inmates in some cases where it is warranted.
    Admiral Kendig. We also have performance-based standards 
for chronic diseases, such as hypertension, HIV infection, 
diabetes, where we actually look at outcome measures to see how 
well we are doing in managing those chronic illnesses. And we 
also have a Peer Review Program where we send out regional 
medical directors and dentists to do peer review, to look at 
the competencies of our practitioners.
    Mr. Lappin. I think one other, if you do not mind. A lot of 
changes have occurred in this area that I think are noteworthy.
    At one time, Dr. Kendig, or someone like him, was the only 
medical director in the Bureau of Prisons. But based on his 
direction, we now have clinical directors who are supervised by 
Dr. Kendig in each of the regions, who are providing direct 
oversight to decisions made at the local level by our doctors.
    Could you expand on that, as well?
    Admiral Kendig. The regional medical directors are another 
set of eyes and ears for me, and they are going out and making 
staff assistance visits and looking at the kind of things I 
just mentioned--looking at performance-based outcomes and 
looking at the competencies of our practitioners.
    Mr. Lappin. But I wanted to make a point in my opening 
statement specific to, you know, what care is provided. And I 
wanted to make a point in there that we try to--we provide what 
is medically indicated.
    Without a doubt, we have individuals in our populations who 
want care provided that we determine is not medically 
indicated. They don't like that. They complain about that.
    On the other hand are some things that we do not see the 
need to do. And it is one reason why I wanted to point that 
out. Sometimes the concerns are raised by folks who want 
something that we do not believe is medically indicated to 
provide as well.
    Mr. Scott. Thank you. I have some other questions.
    But let me defer to the gentleman from Texas.
    Mr. Gohmert. Thank you, Chairman Scott.
    And thank you for your testimony.
    We have heard this morning, and we have read previously, we 
are significantly understaffed for correction officers in our 
prisons. Why is that?
    Mr. Lappin. Well, let me say that, first of all, our number 
one priority right now in the Bureau of Prisons is increasing 
the number of staff in our institutions who directly supervise 
inmates. And unlike many State operations, State prison 
operations, just so you know, all of our employees who work in 
institutions are law enforcement personnel--all trained to be 
correctional officers at any given time.
    Now, granted, a portion of them have specialty areas, 
whether they are doctors or nurses or P.A.s, or case managers 
or counselors----
    Mr. Gohmert. Well, my time is so restricted, I was really 
wanting to get right to why we are so understaffed.
    Mr. Lappin. I think, over the course of the last 4 or 5 
years, with a shift in priorities, we have seen a slower 
funding flow for providing additional staffing.
    Mr. Gohmert. So, you are saying the funding has not been 
there to hire the additional officers.
    Mr. Lappin. We have not had the available funding to fill 
as many positions as we would like to fill. It was not that 
long ago, I think someone referenced, that we were staffed at 
98 percent.
    Mr. Gohmert. In the mid-1990's.
    Mr. Lappin. In the mid-1990's.
    Over the course of time, with increased medical costs, with 
increased salaries and benefit costs, with increased costs 
associated with utilities, all of these things have absorbed a 
greater portion of our S&E budget. And consequently, we have 
had to reduce staffing to pay our staff more and to pay higher 
costs of health care, utilities, and other requirements.
    Mr. Gohmert. Well, you probably heard the report that some 
are wanting the Gitmo detainees or other enemy combatants to be 
housed by the Federal Bureau of Prisons.
    What concerns does that raise for you?
    Mr. Lappin. Well, we currently house over 220 or so 
international terrorists, so our staff are very capable.
    Mr. Gohmert. So, you want them. Okay.
    Mr. Lappin. No, I didn't say that. [Laughter.]
    Let me be real clear. I did not say that.
    We will do what we are asked to do. And I am very confident 
that our staff can handle that mission. But right now----
    Mr. Gohmert. And there is no chance of anybody recruiting 
terrorists in the Federal prisons. Is that correct?
    Mr. Lappin. I think there is always a risk of 
radicalization of any type----
    Mr. Gohmert. Do you think?
    Mr. Lappin [continuing]. In Federal prisons.
    Mr. Gohmert. Yes.
    Mr. Lappin. We have put procedures in place, especially for 
the international terrorists that we currently house, to reduce 
the likelihood that that will occur. And that is through more 
restrictive and controlled management of those particular 
inmates.
    Mr. Gohmert. Do you know how many terrorists have been 
recruited by terrorists in Gitmo?
    Mr. Lappin. No.
    Mr. Gohmert. It is not happening. They are there for a 
reason.
    But let me ask you. I understand the Bureau of Prisons has 
resurrected the chapel library policy, which again will allow 
removal of religious books from prison chapel libraries. In the 
Second Chance Act, we specifically banned this policy.
    But the BOP has adopted rules which seem to ignore those 
guidelines and allow any officer to remove religious books with 
no notice to inmates, faith groups like Prison Fellowship, the 
publisher of the books or even the central office of BOP.
    Can you explain why that is?
    Mr. Lappin. Well, I really do not think our procedures 
allow that to occur without proper notice and review of the 
materials, not only by our religious services staff, but as 
well by our legal staff.
    Mr. Gohmert. So, you will be surprised to find evidence 
that that is happening.
    Mr. Lappin. Well, without a doubt, when this first began--
let us reflect a little bit. Seventy-five years of collecting 
materials in our religious--our chaplains libraries without a 
lot of oversight. So, in the first review, there were documents 
found there that were not of a religious nature, some that were 
not inappropriate for prisons, but did not belong in prison.
    Mr. Gohmert. I was talking about religious books.
    Let me also ask about Kevin Brady's bill. Apparently, there 
are instances of cell phones being used to conduct activity 
that should not be going on.
    Do you have any position on the FCC permitting installation 
of devices to jam, to interfere with wireless communications 
within the geographic boundaries of the prison?
    Mr. Lappin. Without question, not unlike many State and 
local institutions, we are, too, challenged by the introduction 
of inappropriate cell phones. The Department of Justice 
currently is reviewing the legislation you referenced. It has 
not taken a position as of yet. I am sure it will do so in the 
near future. But right now, I am awaiting----
    Mr. Gohmert. So, you are----
    Mr. Lappin. I am working with the department.
    Mr. Gohmert. Till you are told what position to take, you 
do not have a position? Is that what you are saying?
    Mr. Lappin. Oh, yes. We like to do whatever we can to 
eliminate or limit inmates' access or use of cell phones.
    Mr. Gohmert. Okay. Because you are the witness. That is why 
I was asking you.
    Mr. Lappin. I know. But as far as the department's position 
on that specific piece of legislation, the department has not 
taken a position as of yet. Certainly, I am advocating for us 
to do whatever we can to be able to control the introduction of 
cell phones or the use of cell phones by inmates in our 
institutions.
    Mr. Gohmert. Well, where will that position that you would 
take come from?
    Mr. Lappin. From the Department of Justice. Ultimately----
    Mr. Gohmert. Okay.
    Mr. Lappin [continuing]. As they collect all of the input 
from other components of the department----
    Mr. Gohmert. DOJ tells BOP what your position will be.
    Mr. Lappin. No, we all have--all of the components will 
have input into that legislation, at which point the department 
will land on a position----
    Mr. Gohmert. Okay.
    Mr. Lappin [continuing]. For the Department of Justice.
    Mr. Gohmert. Well, see, and that is what I was asking for, 
your input before this body, because whatever DOJ does is 
subject to being changed by law from this body. And that is why 
I was kind of hoping we would have your input here, not just at 
DOJ.
    So, your position is you would like to do whatever you 
could to control----
    Mr. Lappin. There are a number of technologies out there.
    Mr. Gohmert. Right.
    Mr. Lappin. There are some that block the cell phone 
transmission. There are some that search and find the cell 
phone.
    Mr. Gohmert. Right.
    Mr. Lappin. And so, there are a number of strategies. And 
again, the department--I am in favor of doing whatever 
technology we can--is allowable, I am in favor of.
    Mr. Gohmert. Okay.
    Mr. Lappin. The department just has not taken a position on 
that specific piece of technology, given the other concerns 
that there may be in the department with the use of that 
blocking technology.
    Mr. Gohmert. Okay. Thank you.
    Mr. Scott. Thank you.
    The gentleman from Michigan?
    Mr. Conyers. Thank you, sir.
    Why do you have to--why do we have to pass a bill to allow 
you to do this, you know, intercepting these illegal phones?
    Mr. Lappin. It is a violation of the Federal law right now 
to block a cell phone signal.
    Mr. Conyers. Even in prison?
    Mr. Lappin. Even in prison.
    Mr. Conyers. Now, I want to disclaim any connection with 
legislation. [Laughter.]
    Maybe that was passed, Judge Gohmert, before I got here. 
[Laughter.]
    Let us talk for just a minute about all these pregnancies 
that are occurring in prison.
    Mr. Lappin. I think this----
    Mr. Conyers. The pregnancies that are occurring in prison.
    Mr. Lappin. The majority--I do not understand the context. 
I assume you mean the women at the--the female offenders we 
have that are pregnant, the majority of them come to us 
pregnant.
    Mr. Conyers. I see.
    Mr. Lappin. And so, when they enter, either going through 
the court proceedings or during trial, or sometime in advance, 
but they tend to come to us pregnant.
    And to give you numbers, in 2007, we----
    Mr. Conyers. Well, that is okay.
    Mr. Lappin [continuing]. We had 120 babies.
    Mr. Conyers. But they are mostly----
    Mr. Lappin. And to give you an idea.
    Mr. Conyers. If they come that way----
    Mr. Lappin. Right.
    Mr. Conyers [continuing]. That is understandable. Okay.
    Are there unions, collective bargaining among the staff, 
your staff in the prison?
    Mr. Lappin. All of our line employees can join the American 
Federation of Government employees.
    Mr. Conyers. And what is the union and your staff's 
relationship through the management?
    Mr. Lappin. We have an agreement, a collective bargaining 
agreement. We have okay relations, for the most part. There are 
issues we agree on. There are issues we do not agree on. But we 
typically work through those successfully.
    Mr. Conyers. Good.
    I do not know if there is anything called ``prisoner 
morale,'' but what is it like in the slammer there?
    Mr. Lappin. Well, doing time is not easy anywhere. And we 
do assess--and again, it varies from location to location. And 
we actually do every 3 years an evaluation. It is called the 
Institution Character Profile, where we come in and interact 
with our staff.
    We interview staff. We also interview inmates. And we get 
feedback from them on the conditions, how communication is 
flowing from the leadership or from line staff to the inmates, 
and vice versa. We look at the administrative remedies that 
have been initiated at those locations.
    So, it varies from location to location. I can provide you 
our program statement on that specific initiative to kind of 
give you some background.
    Mr. Conyers. Thank you. I do not need that kind of detail.
    But you might tell me a little bit about why so many of 
these people are petitioning to oust you.
    Mr. Lappin. Of what people?
    Mr. Conyers. Not the people that are incarcerated. The 
people that work there in the prisons.
    Mr. Lappin. I do not know that it is that many. And I think 
you could ask----
    Mr. Conyers. You don't know about that?
    Mr. Lappin. Oh, I am aware that they are not pleased about 
the staffing levels in the Bureau of Prisons. And I think that 
is certainly one of the major issues.
    That is an area we do agree. I, as well, am not pleased 
with the levels of staffing.
    Mr. Conyers. No, no. You do not agree with any kind of 
petition to kick you out----
    Mr. Lappin. No, I do not.
    Mr. Conyers [continuing]. Remove you.
    Have you heard of that?
    Mr. Lappin. Yes, I have, sir.
    Mr. Conyers. Well, I have, too. So, tell me about it.
    Mr. Lappin. That is about all I know. I know that some 
staff----
    Mr. Conyers. Oh, you know it that they want to kick--don't 
you talk with them at all?
    Mr. Lappin. Well, sure. I just mentioned an issue of 
concern----
    Mr. Conyers. Well, what do they say?
    Mr. Lappin. They----
    Mr. Conyers. What is their beef, in short?
    Mr. Lappin. I think they are angry. They think that, in 
part, that it is my fault we have not gotten enough money to 
hire more people.
    Mr. Conyers. Well, we would defend you on that one. Is that 
about it?
    Mr. Lappin. Oh, I am sure there are other issues regarding 
the provision of protective gear for staff, other issues. But 
I----
    Mr. Conyers. Sure.
    Mr. Lappin. My guess is the primary issue of concern----
    Mr. Conyers. You can probably----
    Mr. Lappin [continuing]. In my discussion with them is the 
issue of staffing.
    Mr. Conyers. You could probably negotiate that out, could 
you not?
    Mr. Lappin. I would hope so.
    Mr. Conyers. I hope so, too. You sound like a pretty 
effective director of the prison systems.
    Mr. Lappin. Thank you, sir.
    Mr. Conyers. Now, how many terrorists are presently 
incarcerated in our systems? Just a number roughly.
    Mr. Lappin. We have got about 347 total. Two hundred and 
fifteen or so are international terrorists. The remaining 130-
some are classified as domestic terrorists.
    Mr. Conyers. Domestic. Yes, right.
    And you do not have any problem with handling them.
    Mr. Lappin. Never without challenges. We have----
    Mr. Conyers. Well, of course. They have got a----
    Mr. Lappin. They tend to be difficult----
    Mr. Conyers. I would imagine that there would be some 
challenges.
    Mr. Lappin. There are. The communication issues, managing 
communication. Given their tendency to convey things that are 
inappropriate, they get----
    Mr. Conyers. But you are on top of that.
    Mr. Lappin [continuing]. Upset and angry. They go on hunger 
strikes----
    Mr. Conyers. That, too.
    Mr. Lappin [continuing]. Which would bar us to intervene.
    Mr. Conyers. But you can handle that.
    Mr. Lappin. We have been successful so far in managing this 
group, I believe.
    Mr. Conyers. Well, I believe so, too. And I have not heard 
any complaints about it.
    Now, could you take more, if more were given to you?
    Mr. Lappin. As I have said----
    Mr. Conyers. Not that you are looking for them.
    Mr. Lappin [continuing]. Anybody indicted or convicted in 
Federal court, they are ours. And we will take as many of them 
as required.
    Mr. Conyers. Yes. That is the spirit. [Laughter.]
    Mr. Lappin. Yes, sir. They are our responsibility. We will 
take them.
    Mr. Conyers. Glad to hear that.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Conyers.
    The gentleman from Texas?
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you for being here.
    I have seen a lot of jails and prisons in my days, being on 
the criminal court bench for 22 years. The one in Beaumont, 
Texas, the Federal prison, I want to commend the Bureau of 
Prisons for the work there, because of the prison industries.
    That prison makes 20,000 helmets a year for our troops in 
Iraq and Afghanistan. I have toured it. I have talked to the 
inmates. I am very impressed with the whole procedure. It 
works.
    The inmates--you know, there is a waiting list to get on 
the list to work in the prison industries. They are real 
patriots. They have the American flag flying. I hope--I assume 
that is not a violation of FEC rules.
    But it works, and it works very well. And so, don't mess it 
up, is my message. I know you are closing down some things with 
the FPI. And I am here to tell you, I think it works, and it 
works very well. So, be commended for that.
    As I mentioned earlier, I talked to the prison guards, and 
they are concerned about what everybody is talking about. They 
think they are understaffed. Their morale is not the best. And 
they are not dealing with, you know, a bunch of choir boys that 
are in prison, either. So, I think that is something the bureau 
has to address and figure out what that issue is.
    My concern is somewhat like Judge Gohmert's concern. We 
have got some real bad guys in the Federal prisons. And they do 
not like America. They want to do us harm. And they need to 
stay locked up.
    But the problem is, they are converting folks to side with 
them. And radicalization in our Federal and State prisons is a 
big concern, because a lot of those people are going to get 
out. I mean, eventually, almost everybody gets out of a prison 
somewhere. And then they are loose in the country.
    And they have--you know, they went to prison with one 
philosophy. They come out, and they, you know, they hate 
America. Call them terrorists, or whatever you want to call 
them, but they want to do harm to us.
    What is being done to keep that from happening? I am not 
talking about the 347 outlaws. I am talking about the 
conversion techniques. What are we doing in prison to keep them 
from converting folks?
    Mr. Lappin. We put a number of controls in place to ensure 
that that is not happening, at least on a wide-scale basis and, 
if possible, one-on-one. But obviously, the one-on-one is much 
more difficult to manage and determine, given the fact we house 
inmates with two to a cell.
    But on a broader scale, the international terrorists are 
divided into categories. And our more higher concerned 
leadership, those that have the most influence, are managed in 
a very restrictive, controlled environment--at ADX Florence, 
for the most part. And as well as we listen to--live, most of 
the time--phone conversations, written communications and 
other. And they interact very little with other inmates, so 
that limits their ability to do that, obviously.
    Then you have got a second tier where we do not have to 
have them as restricted, but we want to control their 
communications. They are housed in communication management 
units where we can target, again, communication, both written 
and verbal, and oversee visits more adequately than in our 
general population facilities.
    The third tier are folks that we are less concerned about, 
have the potential to radicalize, but we believe it is safer 
and allowable to house them in more of a general population 
type facility like you saw at Beaumont. But even at those 
facilities, we have provided training over the years to our 
staff as to what to look for. Even at those locations, there is 
increased monitoring of mail and phone calls and other 
initiatives.
    We have eliminated, for the most part, the provision of 
religious programs by other inmates. It is all overseen by a 
chaplain. Everything that is said, even that of a volunteer or 
a contractor, is overheard by a chaplain or another bureau 
employee.
    Mr. Poe. Let me ask you this, since time is limited. Since 
you all keep statistics on everything, do you have any numbers 
or percentage about how many folks go to Federal prison, and 
when they leave they have been radicalized?
    Mr. Lappin. I do not. I mean, we know how--I mean, if you 
are talking about conversions, I think that is what some folks 
reference.
    Mr. Poe. You are concerned about these folks.
    Mr. Lappin. Yes, we are concerned about them.
    Mr. Poe. Call it whatever you want to.
    Mr. Lappin. And there are probably isolated incidents we 
could provide you examples of, where folks have misbehaved in 
that way. And what we do is we transfer them to a more secure 
location where they are less--there is less ability to do that.
    But I do not know that we have--I will check--but I do not 
think we have numbers of identified inmates that have converted 
to terrorism.
    We do keep track of inmates who convert from one religion 
to the other. For example, about 5.8 percent of our inmates are 
Muslim. And that has been pretty static over the course of 
years. Those types of things we track.
    But on a given day, there are many inmates that switch 
religions. But we do have statistics on that. We can provide 
that to you.
    But, no, I do not think that we have--you know, we 
identify--we have isolated incidents of inmates we have 
identified who have radicalized, and some who we believe may 
have been influenced. But again, that is a very small scale. I 
will check to see what we have.
    Mr. Poe. Please do.
    Mr. Lappin. But I do not think that we have statistics on 
that, given the infrequency of that occurring.
    Mr. Poe. Please check on that and provide the information 
to the Chairman.
    Mr. Lappin. Absolutely.
    Mr. Poe. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    The gentlelady from California?
    Ms. Lofgren. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    In the 15 years I have been a Member of the Judiciary 
Committee, this is the first time I can remember that we have 
had an oversight hearing such as this in the Bureau of Prisons. 
And it is something I think we ought to do frequently, because 
the role that the bureau plays is a very important one, 
although not one that is generally front in the minds of the 
American public.
    I have a couple of quick questions on staffing. You are 
understaffed. Your staff says so. You say so.
    Do you have a plan to get to where you need to be on 
staffing?
    Mr. Lappin. We have had a plan for 4 or 5 years. And 
basically----
    Ms. Lofgren. Could you send that to me, please?
    Mr. Lappin. It is pretty--what we have done is----
    Ms. Lofgren. No, just send it to me if it is in writing.
    Mr. Lappin. We will send you an overview of what we are 
doing to try to----
    Ms. Lofgren. And what the plan for the future is.
    Mr. Lappin [continuing]. Provide as much----
    Ms. Lofgren. Thank you.
    Mr. Lappin [continuing]. Funding for staffing as we can.
    Ms. Lofgren. I would like to know also, what percentage 
the--your staff is patriotic Americans. A lot of them are in 
the National Guard and in the military reserves.
    What percentage of your vacancies is related to deployment? 
Do you know the answer to that?
    Mr. Lappin. We have about 240 currently deployed.
    Ms. Lofgren. And are they backfilled? Or do those just go 
vacant?
    Mr. Lappin. It varies. If we have an institution that is 
hit extremely hard, they have eight, nine, 10 people on active 
duty at one time, we will try to--we come back and help 
backfill.
    Ms. Lofgren. Is that in your plan that you are going to 
send us?
    Mr. Lappin. We can certainly provide that.
    Ms. Lofgren. I would appreciate that.
    Mr. Lappin. At one time, just so you know, we had 600-and-
some, at the peak.
    Ms. Lofgren. I would appreciate that, because we ought to 
make sure--obviously, those----
    Mr. Lappin. Sure.
    Ms. Lofgren [continuing]. Individuals need to come back 
from the war field with their jobs. But we need to backfill 
them while they are gone, so that there is not a vacancy.
    I want to talk a little bit about what is going on for 
inmates. And it relates to a couple of things.
    My experience in corrections, really, is in local 
government. For 14 years, I was on the Board of Supervisors of 
Santa Clara County, and we had a county jail of about 5,500 
people that we oversaw.
    And one of the things that we did--and the staff was the 
biggest cheerleaders for this--is to make sure that every 
single inmate had an opportunity to improve themselves while 
they were there. One of the police chiefs in San Jose when I 
was first elected said, if you want to do something about 
recidivism, teach the inmates to read. The average literacy 
rate is about second grade.
    And we did that. And when I left, about 65, 70 percent of 
the inmates were in parenting classes, literacy classes. And 
what we found was that, when they got out, it had a very 
positive impact on their recidivism.
    But while they were in--and this is why the staff was so 
enthused--busy hands were not busy stabbing the correctional 
officers. They were busy learning whatever is they were 
learning. It really was--it helped keep peace in the 
institution.
    Furthermore, you need to keep those who are radicalizing 
from communicating. But you cannot beat nothing with nothing. 
And for those who would be radicalized, there has to be 
something else that is appealing to them. And the educational 
efforts are part of that.
    What percentage of your prison inmate population are in 
classes that are either literacy or literature, or parenting, 
or drug treatment, or any of those things that would allow them 
to improve themselves and be solid citizens when they get out?
    Mr. Lappin. That is a great question. Before I turn it over 
to Paul, let me tell you that we have been fortunate at the 
bureau for decades to provide a wealth of programs to the 
inmates, because we could not agree with you more.
    The busier they are in our institutions, the less likely 
they are to get in trouble during that period of incarceration. 
Without a doubt, those inmates who are involved in programs are 
less likely..
    Ms. Lofgren. Yes, but I would like--do you know the 
percentage, though?
    Mr. Lappin. We have some percentages for you.
    Ms. Lofgren. Okay, I would like to hear that.
    Mr. Lappin. And secondly, we actually have done recidivism 
research, over the course of years, on the impact of an inmate 
getting a GED, getting a vocational certificate, working in 
prison industry. We can provide that to you, as well. But Paul, 
I think, has some numbers that he can provide to you.
    Mr. Laird. On any given day, about 53,000 Federal prisoners 
are participating in one or more educational programs, whether 
it be English as a Second Language, General Equivalency 
Diploma, vocational training, recreation or post-secondary 
education. It is about 25 percent of the bureau's population.
    Ms. Lofgren. Twenty-five percent participate in something.
    Mr. Laird. Yes.
    Ms. Lofgren. And of their day, what percent of their day is 
used, consumed with those activities?
    Mr. Laird. It could vary. Some inmates are participating in 
multiple programs. Others may be enrolled in just one 
vocational training program which may, you know, take a couple 
of hours out of their day in addition to their work assignment, 
which would occur----
    Ms. Lofgren. Well, if I can, I would like to get that 
information, because I assume we will have a follow-up hearing. 
You know, it is only 25 percent. What are your goals?
    I mean, we never made any of the participation mandatory, 
nor did we give credit for time served as a way to get out 
early. It was just an opportunity for individuals to be better 
people.
    And since, on average, according to your testimony--or one 
of the testimonies--your inmates are staying for 10 years. So, 
we are going to see them at home. And it is to our advantage 
that they come out clean, and not predators for me and my 
family. And I think, you know, having them learn to do right 
should be part of this experience.
    So, I would like from you in writing, you know, what the 
plan is to allow those inmates, especially those that are going 
to have terms that are going to put them back in communities, 
to consume substantial parts of their time in improvement 
activities, whether it is drug treatment, education, parenting, 
literacy, philosophy, religious activities, should they choose 
that--obviously, that is a personal choice, not the 
government's--and what the staffing implications are, both in 
terms of safety for your staff, but also additional staffing 
that you might need to keep these folks busy.
    And I would be interested in receiving the recidivism study 
that you have done. That would be pertinent, I would think, for 
all of us.
    And I see I have consumed my time, Mr. Chairman. Just one 
note on the cell phones.
    As I understand it, and obviously, you do not want inmates 
with cell phones.
    Mr. Lappin. That is correct.
    Ms. Lofgren. I mean, nobody disagrees on that.
    But it is possible that the jamming also jams the 
neighborhood. And so that anybody--you know, the wives of the 
guards are not going to be able to have a cell phone, either. 
And that is a significant issue for communities with a prison.
    Mr. Lappin. I think some legitimate issues need to be 
worked out.
    But let me just mention, you mentioned education, the 
53,000. On any given day, as well, you have got 20,000 inmates 
working in prison industry, or thereabouts. Correct?
    Mr. Gohmert. Correct.
    Mr. Lappin. And all of the other inmates are assigned a 
job. So, the only program that we mandate is work. We do not 
force inmates into the other programs. We do not make it 
mandatory, other than work.
    In addition to that, on any given day, you have got about 
8,000 inmates in a residential drug treatment program, as well 
as several other faith-based programs and others that are--and 
we will provide you the numbers of participants in those----
    Ms. Lofgren. Yes, that would be great.
    Mr. Lappin [continuing]. How many are participating----
    Ms. Lofgren. And I do not want to abuse my time.
    Mr. Lappin. Right.
    Ms. Lofgren. But if I could get just a grid----
    Mr. Lappin. It will be an overview of our----
    Ms. Lofgren [continuing]. Of how many inmates----
    Mr. Lappin. Yes.
    Ms. Lofgren [continuing]. How many hours per day per 
inmate, the percentage that are not doing something. That will 
give us--you know, and then, any insight you have into why 
there may be a reason why some inmates cannot or should not 
participate in terms of security. But just a picture of where 
we are and where we might need to go, I would appreciate it.
    Mr. Lappin. Mr. Chairman, I do not want to overstep. But 
the Inmate Skills Development Initiative is part of the Second 
Chance Act. It ties in perfectly with her question. If I can 
just expand on that a second.
    We have not done as good a job in the past of matching an 
inmate's needs with the programs we have in institutions. And 
the direction of the Second Chance Act said you will do an 
assessment, and you will try to tie those--the needs of those 
inmates, based on that assessment, to programs that are 
available in an institution.
    So, today, we are doing a much better job of that. It is 
not fully implemented. The assessment is completed. All new 
inmates coming into the Bureau of Prisons are assessed, as well 
as 25 percent of the existing inmates. So, over the course of 
the next 1.5 to 2 years, every inmate will have this assessment 
done.
    And the responsibility of the warden is to make sure there 
is a program available at each location to address the lack of 
skills in the nine skill areas identified in the assessment. 
And then we encourage, we leverage, we prod the inmate to get 
involved more so in those programs where they have the greatest 
need, rather than probe things they would just like to do, 
which was part of what could have been occurring in the past.
    So, I am happy to say we are well on our way to addressing 
the skills initiative I have alluded in the Second Chance Act. 
It ties in perfectly with the educational, vocational, work, 
and specialty program areas like drug treatment, pro-social 
value enhancement, religious needs, mental health needs, 
medical needs, and so on.
    Ms. Lofgren. Mr. Chairman, if I could, I won't go further.
    But when you give this report, I would be also very 
interested in the percentage of your population that has been 
assessed with a mental illness.
    Mr. Lappin. Fifteen percent, which we will put it in 
writing and send it to you.
    Mr. Scott. Thank you.
    The gentleman from Virginia?
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate your 
holding this hearing.
    And Mr. Lappin, welcome. We appreciate your participation.
    I wanted to ask a couple of follow-up questions to those 
asked by the Ranking Member about the situation with the 
Guantanamo Bay detainees.
    I am very concerned about the President's penchant to 
transfer these prisoners to the United States. And I am 
wondering if you can assure us that no Guantanamo Bay detainee 
transferred to a U.S. prison be granted additional 
constitutional rights by a court, by virtue of they are being 
detained on U.S. soil.
    Mr. Lappin. Again, anybody convicted in Federal court, 
indicted or convicted, would end up in our custody. And they 
are going to have--I do not know a way around them having 
access to the same rights as anyone else.
    I am not an attorney. I will go back and ask the folks in 
the department what limitations could be put in place. But I 
cannot speak to that, given my lack of education on the law and 
the Constitution in that regard.
    But, you know, I mean, we have got 207,000 inmates in 
bureau prisons. And they are from all different countries and 
for all different types of reasons. And I cannot think of any 
that have much limitation to access of most rights that others 
would have.
    Mr. Goodlatte. But what kind of measures could you take to 
prevent these individuals from spreading their hatred and 
radicalizing others in our prison system?
    Mr. Lappin. Just so you realize, we are concerned about 
inmates who spread any type of inappropriate behavior, whether 
it is gang association, getting involved in drugs, you name it. 
So, there is radicalization of all types.
    And our staff, I think, do a good job of limiting that 
through two things--either disciplining inmates who behave in 
that manner, or isolating them, if, in fact, discipline does 
not stop that type of behavior.
    But specifically with the international terrorists, we put 
additional controls in place through a classification system 
that places them in a more restrictive environment--that is, in 
cells, more staff control, greater oversight of phone calls, 
less access to other inmates. So, there are a number of those 
types of initiatives we have done.
    There is also a Correctional Intelligence Initiative. And 
that is an initiative that we are part of the JTTF. And as 
these inmates transfer from local to State to Federal custody, 
and back, we are communicating between the States and the local 
those types of behaviors and those concerns they should have 
with these types of inmates. We are also sharing that 
information with the FBI as they transfer in and out of prisons 
and jails, to ensure that we are adequately tracking these 
folks.
    And again, back to the congresswoman's question about what 
do you do just to keep them busy so they are not behaving this 
way, is we try to get those that are willing, those that are in 
a less restrictive environment, involved in more programs.
    Mr. Goodlatte. What kind of a problem do you have in the 
prison system with the spread of the use of cell phones?
    It is my understanding that cell phones are not allowed in 
any U.S. prison. But officials, nonetheless, confiscated 947 
phones in the Maryland prison system, 2,000 handsets and 
accessories in South Carolina, 2,800 mobiles in California.
    Do you have this problem in the Federal prison system, as 
well?
    Mr. Lappin. Yes, we do.
    Mr. Goodlatte. How can you assure us that these detainees 
from Guantanamo Bay would not be able to obtain a cell phone to 
perpetrate, perpetuate some of the things they are bent on 
doing?
    Mr. Lappin. Yes, those in the higher custody levels, it is 
more restrictive. There are more pat searches. There are more 
visual searches.
    It is not impossible, but we have not had a problem at that 
level for those folks.
    But without a doubt, I mean, there are ways of getting 
these things into prisons. Unfortunately, we have a small group 
of employees, as my guess is other departments of corrections 
do, as well, who bring those in and sell them to inmates.
    A year-and-a-half ago we began to search our employees. We 
have seen less of an insurgence of cell phones and other 
contraband through that process. But it continues to be a 
challenge.
    And I certainly look forward to working with you all and 
the department, and others, on strategies to preclude that from 
happening, and if it does occur, how to limit their access in 
prisons.
    Mr. Goodlatte. Let me shift to one more question--since my 
time is about to run out--on a different subject.
    Can you tell us what percentage of the Federal prison 
population is comprised of illegal aliens?
    Mr. Lappin. Yes, I can.
    Of the 207,000, 53,500 are non-U.S. citizens. That is 25.9 
percent are non-U.S. citizens.
    Mr. Goodlatte. And are all of those illegal aliens, when 
they are released from prison, deported from the country? Or 
are any of them released onto the streets of our----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Goodlatte. I would.
    Ms. Lofgren. The witness said non-U.S. citizens. That is 
not the same as an illegal alien. I mean, what percentage of 
those are undocumented?
    Mr. Lappin. I can get that number. I do not have that with 
me. My guess is, most of the illegal aliens are deported.
    Some of the non-U.S. citizens may stay in this country. We 
can probably get some statistics on that.
    Mr. Goodlatte. Do you keep records of that, what the 
disposition is of somebody who is not lawfully in the United 
States, once they complete their prison term?
    Mr. Lappin. I can tell you, I am not sure how specific it 
gets. I can give you an idea. Last year, for example, we 
released about 60,000 to 62,000 inmates. About 43,000 were 
released back into the United States; 18,000 to 20,000 were 
deported.
    So, I will go back and see what specific statistics we have 
regarding not only non-U.S. citizens, but--well, illegal 
immigrants, and what percentage of those are deported, if we 
have that.
    Mr. Goodlatte. Thank you.
    Ms. Lofgren. Would the gentleman further yield for a 
question?
    Mr. Goodlatte. I will certainly yield.
    Ms. Lofgren. You can be a legal permanent resident of the 
United States, and if you have committed a crime, still be 
deported. So, we need to find out at the inset, what is the 
status, because the deportation figure will not give you the 
information.
    Mr. Lappin. And we may have to--we more than likely have to 
go the BICE to verify some of that, because we typically--we 
work closely with BICE. And as someone nears the end of their 
sentence, and they have a detainer, some of them are released 
from our facilities and are deported immediately.
    Some are transferred to BICE, and those are the ones we 
lose track of. We do not know what happens when they get into 
their custody and become detainees, rather than incarcerated 
individuals in our system.
    Mr. Goodlatte. Well, the gentlewoman makes a good point. I 
would like to have both of those categories, because, quite 
frankly, the type of crimes committed by someone lawfully in 
the United States that would give rise to their incarceration 
in Federal prison, probably, in the minds of most people, would 
merit their deportation from the country, as well.
    Ms. Lofgren. In almost every case it would.
    Mr. Scott. Thank you.
    I had a couple of other questions, very quickly, Director 
Lappin.
    When you provide the education information, can you provide 
us information about barriers to higher education? If somebody 
is going to be there for 10 years, there is no reason why they 
ought to stop at a GED.
    About a decade or so ago, prisoners were eligible for Pell 
Grants, and whether or not there are still barriers, or whether 
or not they can pursue their education.
    And finally, on the Federal Prison Industries, what is the 
policy of the Administration in terms of Federal Prison 
Industries, in terms of support, opposition, increasing, 
decreasing? Does the Administration have a policy on Federal 
Prison Industries?
    Mr. Lappin. The Administration--I have been director for 7 
years. They have all been very supportive of Federal Prison 
Industry.
    Mr. Scott. Including the mandatory source?
    Mr. Lappin. You know, I do not want to get into the details 
of that, since this Administration is so new. But we are 
working closely with the Administration to look for strategies 
to do what we have discussed, how to provide more work. How 
that occurs is yet to be determined.
    Mr. Scott. Well, if you could provide for us an 
Administration policy on how we can increase the jobs.
    Mr. Lappin. Did you want to elaborate on that, Paul?
    Mr. Laird. Well, I know in the past, Mr. Chairman, and in 
our testimony last--almost a year ago we were here before you 
on prison industries--talked about a number of different 
suggestions and ways that we could add more job opportunities 
and minimize the impact on private sector employers.
    Mr. Scott. Well, if you could--as the director has 
indicated, this is a new Administration. And if you could get 
to us something that would be official policy for this 
Administration.
    Mr. Laird. Yes, sir. We can do that.
    Mr. Scott. Apparently you do not have it. It has not been 
formulated yet. But if you can do it----
    Mr. Lappin. We will work and let you know.
    Mr. Scott. Thank you.
    Other questions?
    Mr. Gohmert. Yes.
    Mr. Scott. The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    Director Lappin, what is your position on Representative 
Cardoza's bill about allowing guards to carry non-lethal forms 
of weapons?
    Mr. Lappin. Let me tell you what our philosophy and culture 
has been for decades. It is----
    Mr. Gohmert. No, I am familiar with that. I am just asking 
for----
    Mr. Lappin. I want to make sure that we are.
    Mr. Gohmert [presiding]. Harley Lappin's----
    Mr. Lappin. And that is going to lead into my position on 
that. Okay?
    We believe----
    Mr. Gohmert. But see, my time is so restricted. I have done 
research on where we have been there. I have been in lots of 
prisons. I am wanting to know your particular input.
    Mr. Lappin. We would be providing anything now that we 
thought would make our employees safer. And we continue to 
emphasize the importance of communication with inmates, and 
rely on our classification system to identify those inmates 
that are a greater risk and need to have greater controls.
    Therefore, I am not a huge fan of putting Tasers and batons 
on our employees, given the risks that are created. Because you 
have got to realize, anything we give to an employee you must 
assume an inmate can have.
    One reason why we manage the keys in the way that we do, 
and firearms are another thing.
    So, you give it to an employee, you should assume the 
employee can have it. And when they have it, you have to deal 
with it. So, it has not been our practice, other than in 
situations that warrant it.
    So, yes. Well, one, we do not have Tasers in the Bureau of 
Prisons. We do not use that. But we do have batons and other 
protective equipment that is issued to staff in those 
situations where it is warranted, the same as gas.
    Now, as a result of some of the instances that have 
occurred, we have made gas more readily available than it was 
in the past. So, we are getting it closer to the employees, and 
we are working through the regulations to lower the decision-
making authority on who can issue gas. That is taking a little 
time, but we are currently working to lower the approving 
authority for who can issue gas. We are getting the gas closer.
    So, it has not been our position. It is still not that we 
don our staff with that type of protective gear, given the 
consequences, and our emphasis on working more closely and 
directly with inmates, and removing these inmates that are 
behaving in that manner.
    So, right now, we have got a group of inmates, without a 
doubt----
    Mr. Gohmert. No, I understand.
    Mr. Lappin [continuing]. They are not listening to us.
    Mr. Gohmert. But--and you said--you keep talking about the 
department, or the bureau's position. But I am wanting your 
personal input.
    Mr. Lappin. That is my personal opinion.
    Mr. Gohmert. That is what--okay.
    And I could not help but note in response to Mr. 
Goodlatte's inquiry--and I appreciate the sensitivity of Ms. 
Lofgren. These may not be illegal aliens. Some of them will be, 
some won't be. But out of 207,000 inmates, to have 53,000 non-
U.S. citizens, just as an observation, that is a lot.
    We are told that there are some jobs Americans just will 
not do. Apparently, there are 53,000 jobs involving crime that 
Americans would not do that we needed non-U.S. citizens to come 
do for us.
    But there is another issue. And some guards I have talked 
to are very concerned about this, because you understand, 
people get out of prison, and not everybody has been 
rehabilitated. And some carry grudges. And some do not like 
guards that were over them.
    And you had pointed out yourself, director, that all of 
your people are law enforcement. And so, it is troubling to 
some guards to be law enforcement, and yet not have the ability 
to carry a weapon away from the prison.
    We all understand you do not want them carrying weapons, 
lethal weapons, into the prison, because, as you say, then that 
means the inmates could get them.
    But I know of a number of prisons where people carry them 
successfully, come in, they are totally secured when they check 
them in at the prison. But it gives them a level of protection 
when they leave.
    What is your personal position on carrying by your law 
enforcement guards outside the prison?
    Mr. Lappin. Well, again, all of our correctional staff are 
law enforcement----
    Mr. Gohmert. Right.
    Mr. Lappin [continuing]. So they have the authority to 
carry a weapon personally on their own time. And they are 
certainly free to do that on their own time.
    We are not in favor--we are opposed to them bringing those 
weapons on our property. There are three things we control very 
closely and do it very well: weapons, keys, and tools.
    And I think any shift in policy in that regard jeopardizes 
all of our staff at that facility, because all it takes--and we 
do not allow it now--but we still have incidents where staff 
either brought a weapon, sometimes with approval to use the 
firing range, but have not managed that weapon appropriately.
    And the thought of a weapon getting in the hands of an 
inmate is just something that we cannot have in prison. So, I 
am opposed to them bringing their weapon to work and us storing 
for them, given the risk of losing control of that weapon.
    Beyond that, they are free to carry a weapon just like 
anybody else does. But that is our only hesitation.
    Mr. Gohmert. So, that would mean not having them in their 
car, not coming in to prison and checking them into a secure 
location.
    Mr. Lappin. Yes, it is a Federal violation----
    Mr. Gohmert. Right.
    Mr. Lappin [continuing]. To do that.
    Mr. Gohmert. That is what I understood. But we were looking 
at trying to----
    Mr. Lappin. Sure.
    Mr. Gohmert [continuing]. Open that possibility up. So, 
apparently, the message is, if you are in prison and you have 
got a grudge getting out, the best time to go after a guard is 
when they are coming into work, it sounds like.
    Mr. Lappin. But I have to say, I am not aware of incidents 
like that occurring. If it is, they have not been brought it to 
my attention. But, I mean, I started as a case manager. I have 
worked my way up through the system over 24 years. I was a 
warden, an associate warden--not seen that happen.
    Mr. Gohmert. Not seen a guard attacked?
    Mr. Lappin. You know, out in the--by somebody who has made 
a plan to attack them outside of work. If it happens, it does 
not happen very often.
    But that does not marry up with my biggest concern, and 
that is the failure to adequately control for those weapons 
that come on our property. I think that is a huge, huge risk 
that I think is unwise. And so, I am sorry that that limits 
them in part to carry, but I think there is good reason for 
that.
    Mr. Gohmert. But you understand how that directly 
contradicts your position about being able to take care of 
dangerous enemy combatants. On the one hand you say, we do not 
want weapons around the prison, because the inmates get them. 
On the other hand, sure, we can take care of these dangerous 
criminals.
    I am a little uncomfortable with those two----
    Mr. Lappin. Well, we have weapons that we issue to staff--
--
    Mr. Gohmert. Yes, but you have already said that you are 
concerned about--you have to believe, if somebody can legally 
bring something to prison, then the inmates can get them. If 
the guards can bring something, the inmates can get it. Right?
    And that would be true of some dangerous terrorists coming 
to your prison, apparently.
    Mr. Lappin. Well, again, those of the most, the greatest 
concern are, again, controlled----
    Mr. Gohmert. I understand.
    Mr. Lappin [continuing]. In very restrictive, controlled 
environments. I doubt that is likely to happen.
    Mr. Scott. The gentleman's time has expired.
    Thank you, Director Lappin. Appreciate it. And I am sure 
you will have, if you are not here, you will have staff here to 
hear the next panel, who will probably bring up some other 
concerns.
    Mr. Lappin. Thank you.
    Mr. Scott. Thank you.
    The first witness on our third panel is Dr. Reginald A. 
Wilkinson, who is currently the president and CEO of Ohio 
College Access Network. He is formerly director of the Ohio 
State Department of Rehabilitation and Corrections, and is 
president of the American Correctional Association.
    He has a bachelor's degree in political science and 
master's degree in higher education administration, both from 
Ohio State University, and was also awarded a doctor of 
education from the University of Cincinnati.
    Our next witness will be Philip Fornaci, who joined the 
D.C. Prisoners' Legal Services Project as executive director in 
2003, after serving for nearly 5 years as executive director of 
the Maryland Disability Law Center. He is a graduate of the 
George Washington University School of Law, and received his 
undergraduate degree from Columbia University.
    The third witness will be Richard Lewis, a senior manager 
for ICF International, a global professional services firm, 
that provides consulting services, technology solutions in 
defense, energy, environment, homeland security, social 
programs and transportation. He manages the National 
Responsible Fatherhood Clearinghouse and Web site, and serves 
as a consultant at the Urban Institute on issues involving 
improving outcomes for prisoners, ex-prisoners and their 
families.
    The fourth witness on this panel will be Stephen Sady, 
chief deputy Federal public defender for the District of 
Oregon, where he represents clients at the trial level in 
habeas corpus pleadings and on appeal. He graduated from 
Antioch College and from Lewis and Clark Law School.
    And our final witness will be Phil Glover, who serves as 
the legislative coordinator for the Council of Prison Locals 
for the American Federation of Government Employees for the 
AFL-CIO. He is currently a correctional officer at the Federal 
Correctional Institute in Loretto, Pennsylvania.
    Each of the witnesses' written statements will be entered 
into the record in its entirety.
    I would ask for the witnesses to summarize your testimony 
in 5 minutes or less. And to help you stay within that time, 
there is a timing device at your table where the light switches 
from green to yellow when there is 1 minute left, and turns to 
red when the 5 minutes have expired.
    We will begin with Dr. Wilkinson.

   TESTIMONY OF REGINALD A. WILKINSON, PRESIDENT & CEO, OHIO 
              COLLEGE ACCESS NETWORK, COLUMBUS, OH

    Mr. Wilkinson. Mr. Chairman---- [Off mike.]
    Mr. Scott. Wait a minute. Excuse me. Excuse me.
    Mr. Wilkinson?
    Mr. Wilkinson. Thank you.
    Chairman Scott and Members of the House Judiciary Committee 
on Crime, Terrorism, and Homeland Security, I appreciate the 
opportunity to provide testimony before you today regarding the 
key role that Federal and State industries play in the overall 
mission and success of our country's correctional institutions, 
based on my decades of work as a corrections professional.
    I would especially like to thank Chairmen Conyers and Scott 
for inviting me to speak regarding the importance of prison 
industries, and for their own ongoing support for the 
development of quality industry programs in our Nation's 
prisons and jails.
    You have heard my bio, and I am currently head of a non-
profit agency, but I am still very much involved in the 
corrections profession.
    I would like to provide you with my views based on my 
lengthy experience as a corrections administrator as to the 
importance of prison industries in Federal and State 
facilities, as well as give you a thumbnail sketch of what I 
experienced with Ohio's approach to prison employment.
    I hope my input will prove helpful as you examine 
legislative solutions available to you and to resolve the very 
serious challenges facing the country's correctional 
facilities.
    Let me first address the issue of why I believe it is vital 
to maintain an effective and viable Federal and State prison 
industries program. In my view, there are at least six reasons. 
I am only going to give you about four of them.
    Federal and State prison industries jobs are a management 
tool to keep prisoners productively busy, as we all know. When 
prisoners are idle, tension and violence increases in 
correctional facilities.
    Prison industry programs keep thousands of inmates 
productively involved in day-to-day, structured operations of 
our Nation's correctional facilities, thereby increasing the 
safety of correction officers, who are on the front lines, as 
we all know, as well as citizens, inmates and the communities 
surrounding the facilities.
    Federal and State prison industries' job training programs 
reduce crime. Inmates who participate in meaningful job 
training demonstrate a significant statistical reduction in 
recidivism. A Washington State Institute for Public Policy 
study showed that for every $1 spent on prison industry 
programs, as much as $6.23 is saved in future criminal justice 
costs.
    In addition, a previous study conducted by my former 
department, the Ohio Department of Rehabilitation and 
Correction, showed that the Ohio prison industries reduced the 
return rate of prisoners released from prison to about 20 
percent. Participation in high-skilled prison industry jobs 
resulted in a 50 percent reduction in recidivism.
    Similarly, studies also show that Federal Prison Industry 
inmates are 24 percent less likely to recidivate than those in 
non-prison industry jobs.
    Federal and State prison industry contracts with private 
sector businesses boost economic development, and in 
particular, minority-owned small companies. In an attempt to 
expand prison industries and create more real-world, high-
skilled jobs, prison industries have placed an emphasis in 
recent years on partnering with the private sector.
    These partnerships benefit both Federal and State 
departments of corrections and companies they contract with. 
Thousands of private sector businesses from around the country 
benefit from purchases made by both State and Federal prison 
industries.
    In 2007 alone, the Federal Prison Industries purchased 
about $538 million in goods and services and raw materials from 
the private sector. So, in other words, we not only keep 
prisoners meaningfully employed, we help persons who are not 
even affiliated formally with the corrections system employed, 
as well.
    Prison industries offset the costs of incarceration. 
Federal Prison Industries, for example, and other State 
correctional industry programs are self-supporting entities 
that do not require financial assistance from the various 
general revenue funds.
    And finally, Federal and State prison industries imbue 
inmates with a work ethic and a sense of self-responsibility. 
Many inmates have never held a job for any length of time, nor 
have they learned to take instruction or feel the satisfaction 
of a job well done. That is not the case with prison industry 
programs around the country.
    I would like to briefly address some issues, specific 
points of legislation discussion. At this juncture, due to the 
serious challenges FPI has just announced it faces, I would 
urge you to work toward legislative and administrative 
solutions that lift these onerous restrictions on FPI's 
mandatory source authority relating to Federal agencies' 
purchases from FPI.
    It appears at this point that these constraints remain in 
effect, that FPI would further incur loss of inmate jobs and 
training opportunities, along with many civilian industry 
staff. Additionally, the private sector companies who supply 
raw materials will be adversely impacted, as well.
    In conclusion, as I have stated above, prison industries 
provide many positive benefits to Federal and State 
correctional agencies by keeping inmates meaningfully engage by 
providing them with marketable skills that may reduce the 
likelihood of future recidivism. They also provide positive 
economic benefits to taxpayers by reducing reliance on Federal 
and State revenue sources, creating demand for raw materials, 
for raw products and supplies purchased from the private sector 
and increasing the skilled labor.
    Based on the concerns that I and other corrections 
professionals have articulated, I urge you to work toward 
legislation that enhances prison industries and lifts the 
legislation and administrative constraints that are clearly 
impeding their mission and their ability to succeed.
    Mr. Chairman and Committee Members, thank you for the 
opportunity to provide testimony. I will be happy to answer any 
questions.
    And I must say that, at some point real soon, I am going to 
have to catch a plane, so I appreciate the opportunity to 
provide this testimony.
    [The prepared statement of Mr. Wilkinson follows:]

              Prepared Statement of Reginald A. Wilkinson

                              INTRODUCTION

    Chairman Scott and Members of the House Judiciary Subcommittee on 
Crime, Terrorism, and Homeland Security, I appreciate the opportunity 
to provide testimony before you today regarding the key role federal 
and state prison industries play in the overall mission and success of 
our countries' correctional institutions based on my decades of work as 
a correctional professional. I would especially like to thank Chairmen 
Conyers and Scott for inviting me to speak regarding the importance of 
prison industries and for their on-going support for the development of 
quality industry programs in our nation's prisons and jails.
    I am currently the President & CEO of the Ohio College Access 
Network but until a few years ago, I spent thirty four years as a 
correctional administrator in Ohio. A more detailed biography is 
provided at the end of my testimony for the record.
    I would like to provide you with my views based on my lengthy 
experience as a correctional administrator as to the importance of 
prison industries in federal and state correctional facilities, as well 
as a thumbnail sketch of what I experienced with Ohio's approach to 
prisoner employment. I hope my input will prove helpful as you examine 
legislative solutions available to you to resolve the very serious 
challenges facing the country's correctional facilities. And, 
specifically, the mounting obstacles that Federal Prison Industries 
(FPI) is encountering on the heels of the announcement that they are 
being forced to close eight factories, downsize an additional twelve 
more and eliminate seventeen hundred inmate jobs and one hundred plus 
staff jobs all associated with the downsizing of these operations. 
These are sobering statistics in combination with the fact that the 
number of eligible inmates employed in the FPI program has already 
fallen precipitously over recent years by thousands and specifically 
from 25% to 18%. I understand that this is due to limitations imposed 
on FPI by Congress and the FPI Board on FPI's mandatory source 
authority relating to federal agencies purchases' from FPI.

                  THE IMPORTANCE OF PRISON INDUSTRIES

    Let me first address the issue of why I believe that it is vital to 
maintain an effective and viable federal and state prison industries 
programs. In my view, there are at least six primary rationales:
    First: Federal and State prison industries' jobs are a management 
tool to keep prisoners productively busy. When prisoners are idle, 
tension and violence increases in correctional facilities. Prison 
industry programs keep thousands of inmates productively involved in 
the day-to-day, structured operation of our nation's correctional 
facilities, thereby increasing the safety of the correctional officers 
who are on the front lines, as well as for civilians, inmates, and the 
communities surrounding the facilities.
    Second: Federal and State prison industries' job training reduces 
crime. Inmates who participate in meaningful job training demonstrate a 
significant statistical reduction in recidivism. A Washington State 
Institute for Public Policy study showed that for every $1 spent on 
prison industry programs, as much as $6.23 is saved in future criminal 
justice costs (arrest, conviction, incarceration, post release 
supervision and crime victimization). In addition, a previous study 
conducted by the Ohio Department of Rehabilitation and Corrections 
showed that participation in Ohio Penal Industries jobs reduced the 
return rate of offenders released from prison by 20 percent. 
Participation in high-skilled Ohio Penal Industries jobs resulted in a 
50 percent reduction in recidivism. Similarly, studies also show that 
FPI inmates are 24 percent less likely to recidivate than those inmates 
in non-FPI jobs.
    Third: Meaningful job training contributes to the successful 
reentry of offenders and increases their chances of finding and keeping 
jobs after release. Now, more so than ever, with our country's tough 
economy, one can imagine, former prisoners attempting to find jobs are 
at a natural disadvantage. Like FPI, Ohio's mission is to teach them 
skills so that they can compete in the job market after they have 
served their prison sentences. For example, Ohio has one hundred plus 
vocational education programs ranging from building maintenance to 
welding, from brick laying to auto mechanics. And, their industries 
program works with areas in the Ohio Department of Corrections, as well 
as with other state agencies to enhance the skill-sets obtained by 
offenders.
    Fourth: Federal and State prison industries' contracts with private 
sector businesses boost economic development and in particular 
minority-owned and small companies. In an attempt to expand prison 
industries and create more real-world and high-skilled jobs, prison 
industries have placed an emphasis in recent years on partnering with 
the private sector. These partnerships benefit both federal and state 
Departments of Correction and the companies they contract with. 
Thousands of private sector businesses from around the country benefit 
from purchases made by both federal and state prison industries. In 
2007, FPI alone purchased $538 million in goods, services, and raw 
materials from the private sector OR in other words, 77.4 Percent of 
FPI's Revenues. Of this 77.4 Percent, nearly two-thirds of these 
purchase contracts are with small businesses, many of them female and 
minority-owned or disadvantaged. Estimates indicate that roughly 5,000 
jobs in the private sector are the result of goods purchased by FPI 
alone, not including state industries purchases. This is one of the 
best examples I have seen of the public/private partnership model 
working to benefit all parties, the federal and state governments, 
private businesses across our nation and our country's overall 
correctional programs.
    Fifth: Prison industries offsets the cost of incarceration. FPI and 
most other state correctional industry programs are self-supporting 
entities that do not require financial assistance from the general 
revenue fund thereby creating cost savings to taxpayers, an all too 
critical goal for both federal and state governments in light of our 
country's current tough economic climate.
    Finally, federal and state prison industries imbue inmates with a 
work ethic and a sense of self-responsibility. Many inmates have never 
held a job for any length of time, nor have they learned to take 
instruction or feel the satisfaction of a job well done. In FPI, Ohio, 
and other jurisdictions, prison industries work standards mirror the 
normal work environment as closely as possible so that when offenders 
are released to the community they are as ready as possible to join the 
work force with real world job skills so they can be as successful as 
possible at making a productive contribution.

              OHIO'S INMATE EMPLOYMENT AND REENTRY EFFORTS

    Ohio has worked very hard to increase the employability of ex-
inmates through initiatives such as the Offender Job Linkage Program, 
where local business leaders are invited to interview skilled inmates 
close to release at job fairs in the prisons. As a prerequisite to 
participation in the job fairs, inmates must be within 90 days of 
release and are required to produce a current resume and participate in 
classroom training to develop interview skills. To date, thousands of 
inmates and hundreds of potential employers have participated in over 
300 plus job fairs across the state.
    One of Ohio's most important employment initiatives is the 
community service program. Ohio has expanded the numbers of inmates and 
hours devoted to this area from over 75,000 hours in 1991 to millions 
of hours in 2007. This program has provided Ohio communities with over 
40 plus million hours of volunteer inmate service since the inception 
of the program.
    Finally, it is important to note that offender employment is just 
one component of a broad systems approach to managing offenders 
returning to the community following a period of incarceration. In 
Ohio, and many other jurisdictions, innovative ``reentry initiatives'' 
are underway that emphasize a continuum of services, programming, 
support, and offender accountability from the time of sentencing to 
well beyond an offender's release to the community. I previously 
testified before Congress in support of the landmark legislation, The 
Second Chance Act, as I believe efforts such as those embodied in this 
legislation further enhance public safety and ensure that many more 
offenders return home as tax paying and productive citizens.
 recommendations to address the current state of fpi and state programs
    I would like to briefly address some specific points of legislative 
discussion. At this juncture, due to the serious challenges FPI has 
just announced it faces, I would urge you to work towards legislative 
and administrative solutions that lift these onerous restrictions on 
FPI's mandatory source authority relating to federal agencies 
purchases' from FPI. It appears at this point that if these constraints 
remain in effect that FPI would incur further loss of inmate jobs and 
training opportunities, along with the loss of many civilian industry 
jobs. Additionally, the private companies who supply raw materials and 
partner with correctional industries would be placed at further risk to 
lose their jobs should these types of legislative constraints remain on 
the books. Certainly a less than desirable outcome on all levels.

                               CONCLUSION

    As I have stated above, prison industries provide many positive 
benefits to federal and state correctional agencies by keeping inmates 
meaningfully engaged and by providing them with marketable job skills 
that may reduce the likelihood of future recidivism. They also provide 
positive economic benefits to taxpayers by reducing reliance on federal 
and state general revenue fund sources, creating demand for raw 
products and supplies purchased from the private sector, and by 
increasing skilled labor. Communities and families benefit by offenders 
being returned to society with a greater likelihood for employment, a 
chance to become productive, law-abiding, and drug free citizens.
    Based on the concerns that I and other corrections professionals 
have articulated, I urge you to work towards legislation that enhances 
prison industries and lifts the legislative and administrative 
constraints that clearly are impeding their mission and ability to 
succeed.
    Mr. Chairman and Committee members, thank you for the opportunity 
to offer my testimony. I would be pleased to address any questions that 
you may have.
                               __________

    Mr. Scott. Thank you.
    Mr. Fornaci?

 TESTIMONY OF PHILIP FORNACI, DIRECTOR, DC PRISONERS' PROJECT, 
WASHINGTON LAWYERS' COMMITTEE FOR CIVIL RIGHTS & URBAN AFFAIRS, 
                         WASHINGTON, DC

    Mr. Fornaci. Good morning.
    Thank you for this opportunity to provide testimony. I 
would particularly like to thank Chairman Scott for his 
leadership on these issues.
    My name is Philip Fornaci. I am the director of the D.C. 
Prisoners' Project of the Washington Lawyers' Committee. We 
advocate on behalf of D.C. prisoners. As this Committee is 
aware, our organization was created about 20 years ago, and 
focused on the needs of D.C. prisoners, primarily held in our 
so-called State prison system.
    With the D.C. Revitalization Act in 1997, and the closing 
of that prison, D.C. prisoners were moved into the Federal 
Bureau of Prisons. As a result, our organization has focused on 
the Federal Bureau of Prisons, perhaps uniquely in the country. 
We have unique perspective on viewing the Bureau of Prison 
systems, because it is, in fact, our State prison system.
    You have my written testimony. I just wanted to give you 
some of the highlights. And I wanted to focus in particular, a 
couple of issues related to medical care and some other issues 
in the Bureau of Prisons.
    I wanted to first say that the Federal Bureau of Prisons 
provide in many facilities very high levels of medical care, in 
particular at Butner Federal Medical Center, at Rochester. 
These are places that provide a very high level of care that is 
certainly similar to care that is available in the community.
    However, many other facilities in the BOP do not provide 
not only that level, but not a very high level of care. In 
particular, I wanted to focus on the private prison system, and 
in particular, the private prison known as the Rivers 
Correctional Institution in North Carolina, the facility with 
which we are very familiar. That facility was opened, in fact, 
to house D.C. prisoners with the closing of the Lorton facility 
here in the D.C. area. So, it was essentially opened to make a 
profit on the D.C. prisoners.
    Since the moment of its opening in 2002, we have been 
inundated with complaints about medical care. This is a 
facility with 1,300 people. It has one doctor not working 40 
hours a week to provide medical care to these individuals.
    In contrast, most BOP facilities have at least two 
physicians and provide weekend coverage. Rivers does not 
provide that coverage.
    In 2006, the Washington Lawyers' Committee--2007, I am 
sorry--the committee filed a class action litigation to improve 
medical care in that facility. So, we are very familiar with 
it. We visit it every 6 weeks. We interview people constantly 
there.
    And I wanted to raise that we are not discussing here 
things like elective surgery. We are talking about instances of 
medical malpractice that lead in serious disfigurement and 
death.
    We are talking about an outdoor pill line, where people 
with serious disabilities need to stand outside in stormy 
weather to pick up medications two or three times a day.
    BOP has sent people with critical medical needs, post-
surgical people, folks even who are suffering from ALS, Lou 
Gehrig's disease, have been in Rivers, and at facilities that 
cannot simply take care of them.
    And during the course of our litigation, and as I have 
detailed in my testimony, the Bureau of Prisons has asserted 
that, in fact, it engages in only limited monitoring of this 
facility. Limited would be an overstatement, I should say. They 
have left this for-profit facility with a situation of a fixed 
price contract--that is, they get a fixed amount of money every 
year--provides very little monitoring.
    And the result, of course, is very obvious what will 
happen. They receive poor medical care, ultimately serious 
injury, and death will occur, and it has.
    In addition to Rivers, we visit many other facilities in 
the Bureau of Prisons, responding to complaints from D.C. 
prisoners in those facilities. D.C. folks are held in about 70 
different prisons.
    We often get information about medical care. We have 
developed ways of kind of siphoning out information. And we 
have attempted to bring that information to the attention of 
the Bureau of Prisons. We have offered to have quarterly 
meetings with medical staff to say, ``Look. We visited this 
facility. These are the kinds of problems we have had.''
    I have attached to my testimony, also, a letter, a 
correspondence from the general counsel of the Bureau of 
Prisons we received in 2008 from Kathleen Kenney, who not only 
refused our request to have some regular meetings, but, in 
fact, threatened our access to the Bureau of Prisons.
    We were quite startled with this, because we felt that this 
was, in fact, a free way for the bureau to get feedback about 
its facilities. And on top of that, giving us a threat that our 
work was, in fact, somehow inappropriate, was quite disturbing 
to say the least.
    Third, Director Lappin referred to the grievance system as 
a possible way to get information about medical problems in the 
Bureau of Prisons, which is possible, except that the grievance 
system takes approximately 3 months to fully exhaust. 
Obviously, that is not the best way to get attention to one's 
medical needs.
    In our experience--and we have reviewed hundreds of 
grievances--we have rarely seen an instance where the Bureau of 
Prisons has gone back and said, ``Yes, you are right. You are 
not getting very good care, and we are going to get that for 
you.''
    Now, generally speaking, the bureau, when the grievance 
reaches the level of BOP headquarters, they will generally 
affirm the decisions of the local medical providers. Again, we 
are not talking about elective surgery here. We are talking 
about basic medical care.
    I just wanted, in my remaining 12 seconds or so, I want to 
raise a couple of other non-medical issues that are detailed. 
And I just hope that you will take a look at my testimony on 
this.
    One is the perennial problem of snitches in the Bureau of 
Prisons. That is, not people snitching, but people not being 
protected. People are giving State's evidence who are very 
heavily pressured to provide evidence in cases. We are 
representing a person who provided evidence for the FBI in a 
case involving corruption by a Federal prisons official.
    He was not only not protected, but his life has been 
threatened for the last 4 years. And we brought litigation to 
no effect on this. This man's life is in danger as we speak 
now, yet there have been no steps. Mr. Lappin has been named 
personally in that lawsuit, but to no avail.
    The other issue is the use of restraints as punishment in 
the Bureau of Prisons, which is fairly common. That complaint 
is detailed in my testimony.
    And finally, I just wanted to mention that the issues 
around D.C. prisoners are complicated, and they are certainly--
the D.C. folks are about 3 to 4 percent of the overall 
population. It is very hard for us to get a hearing on these 
issues, and we really very much appreciate this opportunity to 
bring some of these matters to your attention.
    But we have some ongoing issues. It has been 8 years of 
D.C. prisoners in the Bureau of Prisons. We have a lot of 
issues.
    We would like to bring them closer to home. We would like 
to help in terms of their re-entry into the community by 
keeping them closer to D.C., bringing services to them and in 
other ways.
    And I would encourage this Committee to consider having 
regular testimony or a hearing very soon on the specific issues 
of D.C. prisoners in the Bureau of Prisons.
    Thank you.
    [The prepared statement of Mr. Fornaci follows:]

                  Prepared Statement of Philip Fornaci

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Lewis?

        TESTIMONY OF RICHARD A. LEWIS, SENIOR MANAGER, 
                 ICF INTERNATIONAL, FAIRFAX, VA

    Mr. Lewis. Good morning, Mr. Chairman and distinguished 
Members of the Committee.
    I would like to thank Judge Gohmert for the invitation to 
be here today.
    On behalf of ICF International, we appreciate the 
opportunity to discuss the efficacy of faith-based programming 
in prison. Faith-based programs are essential to improving 
outcomes for prisoners, for ex-prisoners and their families.
    For more than 20 years, I have been managing programs and 
conducting criminal justice research, and work for a company 
called ICF International. And I have had the opportunity to 
also serve as director of research for Prison Fellowship, and 
also as a social science analyst with the U.S. Department of 
Justice, Master's Justice.
    As you all are aware, American prisons are indeed in 
crisis. Today, I think the major challenges are an overburdened 
prison system, which we talked about earlier today, and record 
numbers of prisoners returning home.
    Today, there is about 2.3 million prisoners--another 5.1 
million adults on probation or parole, bringing the total 
number to a new high of 7.3 million persons. And that was at 
the close of 2007.
    Many of these folks who are preparing to return home--I 
should mention that prisoner re-entry starts on the day of your 
first day of incarceration. But many of these folks who are 
returning home are returning home with inadequate preparation 
for their successful reintegration back into society.
    As you all know, they have multiple barriers to success 
upon returning home, have difficulty reconnecting with 
families, difficulty getting affordable housing, difficulties 
finding a livable-wage job. And in addition, many do not have 
job skills to be able to gain employment, which is why the 
previous testimony was so very important.
    In addition, many folks returning home have substance abuse 
issues, substance abuse challenges, mental health challenges 
and health challenges, as we talked about a little bit earlier. 
Moreover, folks returning home from prison, the majority of 
which are returning home to poor neighborhoods, which are 
largely infested with drugs, gangs and violence.
    So, the stakes are high, and all of this is happening in an 
economic climate of increasing demand for services and 
declining resources.
    The question is, what do we do about these formidable 
challenges to folks who are impacted by incarceration?
    The community of faith is an untapped resource, a resource 
that the Bureau of Prisons at the Federal level, and State 
prisons, and certainly local jails, should rely upon as 
potential partners in problem-solving. This has taken root over 
the past 30 years. But as you all know, religion has been 
around in corrections for more than 100 years.
    And the church is uniquely positioned, with the volunteers 
that are really unlimited, to assist and to augment the social 
services and spiritual services that are provided folks while 
in prison and upon returning home.
    Over the past 30 years, there has really been a resurgence 
of religion in corrections, and increased diversity among 
faiths that are happening in prison settings, and a real 
opportunity, I think, to reach out to folks and to effect some 
positive change.
    So, the historical of the church, combined with this 
potential for volunteers, uniquely position the faith community 
to help with the successful reintegration of returning 
offenders.
    A little empirical evidence. There is a growing body of 
empirical evidence out there that supports the claim that 
religious beliefs are inversely related to a variety of crime 
problems, all the way from juvenile delinquency, all the way 
through the adult continuum.
    There are two studies' findings which I would like to share 
with you, because I had an opportunity to manage these. But one 
was the InnerChange Freedom Initiative study that happened in 
the State of Texas.
    As director of research for Prison Fellowship, we had an 
opportunity to do a 2-year study of the InnerChange Freedom 
Initiative. And the results of the study show that graduates of 
this program, which is largely religious and Bible-based and 
run by Prison Fellowship, 60 percent--folks who graduated from 
the program were 60 percent less likely to be reincarcerated, 
50 percent less likely to be rearrested.
    We need more studies like the InnerChange Freedom 
Initiative and more programs like IFI.
    I also had the opportunity to conduct an evaluation of 
Horizon Prison Ministries in Tomoka Prison in Florida. Once 
again, we had some very promising findings from Horizon, 
similar to the ones that we found at IFI. Not only does 
religious programming promote public safety in terms of 
reducing recidivism, but it also promotes prison safety.
    At Horizon, it promoted a safe correctional environment. 
Folks who were participating in our programs had fewer 
discipline reports, fewer segregation stays and were less 
likely to be arrested upon release from prison. Specifically, 
one-third, 30 percent of our folks who graduated from the 
program were rearrested during the 2-year follow-up period.
    The bottom line is that we need to think strategically 
about prisons and think more broadly about the prisons being in 
crisis, and try and find more ways for the faith community to 
work in partnership with folks who are in corrections to help 
solve the many problems that I mentioned early on.
    The bottom line is that faith matters. It matters in 
changing folks' lives. It matters in improving outcomes for 
prisoners, ex-prisoners and their families.
    Thank you for your time, and I would be happy to answer any 
questions that you have.
    [The prepared statement of Mr. Lewis follows:]

                 Prepared Statement of Richard A. Lewis

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Sady?

   TESTIMONY OF STEPHEN R. SADY, CHIEF DEPUTY FEDERAL PUBLIC 
                     DEFENDER, PORTLAND, OR

    Mr. Sady. Thank you, Chairman Scott and Ranking Member 
Gohmert, for the opportunity to address Bureau of Prison rules 
that limit statutory opportunities for prisoners to achieve 
earlier and more successful transitions back to the community 
at the end of their sentences.
    Over-incarceration wastes millions in taxpayer dollars, 
exacerbates prison overcrowding that is dangerous to both 
correctional officers and inmates alike, and separates 
prisoners, longer than is necessary to accomplish any 
legitimate goal of sentencing, from families and from their 
communities. With no change in statutes, the Bureau of Prisons 
could address what Director Lappin this morning called ``growth 
outpacing staffing.''
    Well, there is a way of limiting the growth without having 
any change in any current statutes: by enforcing the statutes 
that would save millions and ease overcrowding in six areas: 
the Second Chance Act, the Second Look statute, good time 
credit, residential substance abuse, boot camp and sentence 
computation.
    Starting with the Second Chance Act on April 9, 2008, 
President Bush signed the Second Chance Act with strong 
bipartisan support. In section 251 of the SCA, Congress doubled 
the period for required consideration of community corrections 
from 6 months to 12 months. Instead, at this moment, the rule 
that is in effect effectively limits the time in community 
corrections to 6 months--exactly the same situation we had pre-
SCA.
    Now, by starting half-way house earlier, at 12 months, that 
would also allow earlier transition to home detention, which is 
an eighth of the expense. The cost of supervising home 
detention is at $3,743 a year instead of the $25,894 for 
general incarceration expenses.
    Each prisoner is supposed to receive individual 
consideration, but overcrowding could be substantially 
addressed simply by enforcing the existing law and starting out 
with the statutory assumption that up to 12 months should be a 
norm. It virtually never happens. Nothing has changed.
    On the Second Look statute, under 18 USC, section 3582(c), 
a prisoner who has extraordinary or compelling circumstances 
can be brought to the attention of the sentencing judge to, 
once again, reassess whether the sentence that was imposed is 
more than is necessary to accomplish the goals of sentencing.
    The Bureau of Prisons is the gatekeeper. But the Sentencing 
Commission was assigned by Congress the job of deciding what 
those standards are, what constitutes extraordinary and 
compelling circumstances.
    And what has happened is, we have a huge gap between the 
very broad potential for a judge to get another chance to take 
a look at a case--a second look--and the BOP standard that is 
only for people who are on death's door. We call it the death 
rattle rule, because in 25 percent of the applications, the 
handful of applications, the prisoner died before the judge 
even had a chance to consider.
    So, a way for expensive and unnecessary incarceration to be 
stopped is not being taken advantage. As a result, we are 
having unnecessary incarceration.
    The good time credit that Congress was anticipating, 85 
percent is the minimum of what everybody has to serve. The 
Bureau of Prisons requires even the best behaved prisoner to 
serve 87.2 percent of his sentence. That is 2.2 percent at 7 
days a year.
    If you do the math, it is 7 days--not that much. You 
multiply it out by the 95 percent of the prisoners eligible, it 
comes out to 36,000 years of over-incarceration that you could 
save $981 million on. That is almost $1 billion of prison 
savings that could be used to make sure that the staffing is 
safe for correctional officers and prisoners alike.
    Residential treatment. The authorization is up to a year of 
reduced sentence. That number has been going down. Six months 
ago it was 8.2, 7.8. Now it is 7.4.
    Well, if the program was administered in a sensible way, so 
that people were determined their eligibility soon enough, and 
you did not have this glut at the end of the period of time, 
and people were getting that 4.4 extra time, you multiply it by 
the 4,800 prisoners who were receiving the sentence reduction 
and you have $44 million in savings--just by administering the 
program in a way that sensibly allows the people who are 
already eligible to receive the full amount.
    And you would even have more savings, if you made the 
people who are statutorily eligible but are being categorically 
excluded for being an alien, or for being a non-violent 
possessor of a firearm, or for being somebody who has a prior 
conviction of a certain type.
    We also lost the boot camp, a program that was providing 
first-time offenders who were non-violent a way of avoiding 
large parts of the over-incarceration that was resulting. 
Instead, they were able to get more time in community 
corrections, and a 6-month sentence reduction. That program was 
terminated--no notice, no discussion. It was gone.
    The sentencing computations are done in a way that is 
creating unnecessary consecutive sentences, depriving good time 
on concurrent sentences, depriving people of time for credit in 
immigration custody, which we have heard is very big chunk of 
the prison population.
    These are unnecessary expenses, unnecessary incarceration, 
that without any new legislation could make the ratios of 
prisoner to guard much safer and save public resources.
    Redirection of the BOP policy toward full implementation of 
these ameliorative statutes would bring both justice and 
rationality to a system that is now spurring unnecessary growth 
that is creating--that is outpacing staffing and creating 
dangerous conditions and unnecessary expenditures.
    Thank you.
    [The prepared statement of Mr. Sady follows:]

                 Prepared Statement of Stephen R. Sady

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Mr. Glover?

  TESTIMONY OF PHIL GLOVER, LEGISLATIVE COORDINATOR, AMERICAN 
       FEDERATION OF GOVERNMENT EMPLOYEES, JOHNSTOWN, PA

    Mr. Glover. Thank you, Mr. Chairman, Ranking Member 
Gohmert. I appreciate the opportunity to testify today. You 
have our written statement for the record.
    I am a correctional officer by trade. I have been a 
correctional officer, soon to be 20 years in September of 2010. 
And I would like to get into the issue of assaults and violence 
inside the prison system. We have documentation given to us by 
local unions across the country, what some of the Members here 
have talked about, speaking to the correctional officers in the 
field.
    Just in July and June timeframe reported to us, there have 
been 10 lockdowns in the Federal Bureau of Prisons: USP 
Hazelton, drug relations between gang members; USP Big Sandy, 
Kentucky, inmate static; USP Beaumont, gang-related 
disturbance; USP Canaan, gang-related violence; FCI Oxford, a 
medium, gang-related disturbances; USP Hazelton, gang-related 
disturbances; USP Atwater, which was discussed this morning, 
gang-related fighting; FCI Big Spring, gang-related 
disturbances; USP Terre Haute, Indiana, inmate fighting.
    These are not isolated. The problem that has been going on, 
and what we have been talking about, is these are not isolated 
cases.
    So far this year, reported to the union, we have had 101 
assaults on staff without weapons, and we have had 33 assaults 
on staff with weapons. Now the inmates are fabricating weapons, 
or they are using mop handles. They are breaking off pieces of 
plastic and sharpening it, and stabbing our staff.
    So, the idea that we cannot carry a 2.5-ounce can of pepper 
spray to keep an inmate off of us when they are attacking is 
ridiculous. And we have told the Bureau of Prisons this 
repeatedly.
    So, it is a shame that we have to come to a congressional 
Committee to get 2.5-ounce cans of pepper spray for staff to 
carry around with them, if they are about to get punched in the 
face by an inmate.
    So far, January 2009, we had 14 staff assaulted; February 
2009, 13; March, 17; April, 6; May, 11; June, 27. And so far 
this month we have had eight assaults.
    Some of the assaults--an officer tells an inmate in a 
hallway to pull up his pants. The inmate turns around and 
strikes the officer on the side of the head with his fist. The 
officer receives contusions on the side of his head.
    Staff assaulted by an inmate at Hazelton. An inmate threw 
feces and urine on the officer in our A-1 step down unit. The 
facility is currently locked down due to drug interaction in 
gangs.
    USP Atwater, a fight was announced at approximately 11 a.m. 
in unit 5-B. This is one of the units that the officer was 
killed in last year. The fight moved from a cell into the flats 
and back into the cell. The fight was over cell assignments 
according to one inmate.
    And if any of you have seen the BOI report from the murder, 
which we sent to the Committee, I believe, that was one of the 
issues. It is describing the problems at Atwater prior.
    Hazelton, a staff member assaulted in the seg unit. Again, 
the inmate held the food slot open while the officer was 
feeding. The inmate spit on the officer, then threw a food tray 
lid and hit the officer in the face.
    FCI La Tuna, another medium, an inmate began kicking a door 
located between unit one and three. When the unit officer 
approached to investigate, the inmate attacked the officer, 
placing him in a headlock, and struck him with his fist. The 
inmate was restrained and placed in a special house.
    McCreary USP, an inmate approached a quarter officer from 
behind and punched him one time in the facial area. The inmate 
was restrained and was transported to health services, where he 
again became combative, pulling away from staff and kicking 
staff.
    Coleman USP, an inmate was escorted to the disciplinary 
hearing office by the lieutenant. When he was asked what is 
going on, the inmate jumped on the desk and hit the officer in 
the chest area and pushed him against the wall. Staff then 
responded and removed him.
    The last one I will read, FMC Devens, July 2. At 10 a.m., a 
nurse was assaulted by a mental health inmate with a lock and a 
sock. The nurse was transported to a local hospital where she--
--
    There are I don't even know how many here to read. And I am 
not going to do that to you. I would like to put them into the 
record.
    The idea, we have been understaffed for many years. In 
2006, the director cut 2,300 positions due to budgets, now 
telling people that he is fighting for 3,000 new positions. 
That is commendable.
    But we really need Congress to act. We cannot continue to 
have officers in housing units by themselves in high-security 
housing units.
    One of our suggestions to the bureau was to put two 
officers working as teams, like you do on patrol in a police 
force, inside these high-security housing units. It would 
require a grand total of about 120 positions to put one extra 
officer in the unit from 2 to 10 p.m., when the inmates are 
then locked down for the night in the high-security housing 
units.
    We have gotten nowhere on this issue. The director approved 
two staff to rove additionally on a shift--not inside the 
housing units, but rove on the compound. It is not working.
    On less than lethal munitions, we put in our literature, 
yes, we put in there that we would like pepper spray, batons or 
Tasers. Tasers--we are not worried about having Tasers. We are 
not worried about walking around with Tasers. That is not the 
point.
    But the point is, the idea that you now have more access to 
pepper balls that are locked up in the captain's office, when 
an inmate is about to assault you, it does not make sense to 
the staff. And you have heard that from members out in Texas, I 
know, because I know they have had meetings.
    So, these things have got to be looked at. Unfortunately, 
they are now at this level. We wish we could get the bureau to 
agree to take care of these things.
    The vest issue, you heard Congressman Cardoza. And he has 
been a great advocate for us since the murder. Yes, vests were 
provided to the staff. If you want a vest, you can ask for one. 
But you must wear it on every single post you work anywhere in 
the institution, even in annual refresher training.
    And so, what staff are doing are turning them back into the 
arms room, because it is a policy that was meant to make you 
not want and wear a vest. We wanted to negotiate locally on 
what housing units might require the use of a vest--segregation 
and other places. That has gone nowhere. And again, we have to 
come to Congress and talk about it.
    A couple of things that came up during some of the other 
testimony. Federal Prison Industries, with the DOD rules 
kicking in, those kind of issues, with the limited amount of 
contracts, with the DOD not purchasing as much. My institution, 
for instance, at FCI Loretto, used to have 500 inmates that 
worked in FPI, an electronics factory. We are down to 300 
inmates in the FPI in our facility.
    What is happening now is, we are down to 4 days a week. We 
were running 5 days a week. Now we are down to four.
    What this is causing inside the facility--for those people 
that do not understand this--is, if you normally have 200 
inmates down in the recreation area, now you have 400. And our 
recreation areas are not built to handle those kind of 
amounts--those amounts of inmates. The other inmates that get 
laid in end up in the housing unit with the correctional 
offices.
    And so, the education programs are stressed. The recreation 
facilities are stressed. And this all causes safety issues 
within the facility.
    We have asked for ability to go overseas and bring back 
work. That has not come through. We have tried to partner with 
companies. That has not come through.
    We would like--we have asked for an appropriation. What we 
are doing now is we are asking for an appropriation, to say, 
let us build things, and give us the Katrina victims. Let us 
make mattresses, blankets, whatever. We will give this stuff 
away, but we have to--our staff are paid out of UNICOR sales, 
FPI sales.
    And so, we cannot just create items and pay for raw 
materials, and pay the inmates and the staff and their 
benefits, without having some form of funds coming in. And 
since the sales are down, that is where we are with FPI.
    We think we have signed on to several bills talking about 
sentencing changes. Our union has supported them. We think it 
is necessary to change some of the sentencing in order to 
reduce crowding. If we are not going to build at 40 percent 
over-crowded, which is what we are now, and we are not going to 
build, then we need to look at reducing sentences in some way 
that makes sense.
    Non-violent offenders, programming, we know there is a 
group on veterans. I am on the Union Veterans Council for AFL-
CIO, and there is actually work being done to move veterans 
into veterans' quarters, to get them so they are not 
incarcerated in Federal prisons. So, we think those are all 
good ideas that need to be discussed.
    The Second Chance Act, the Adam Walsh Act, the Prison Rape 
Elimination Act--those acts, unfortunately, are not funded. And 
as much as the bureau director is telling you they are, if the 
money is there, we are not seeing staff increases in case 
management.
    We are not seeing staff increases in counseling. We have 
one drug treatment specialist for 1,450 inmates at my facility. 
So, we are not seeing increases in those.
    And with that, I hope to answer any of your questions.
    [The prepared statement of Mr. Glover follows:]

                   Prepared Statement of Phil Glover

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you, Mr. Glover.
    I will now recognize ourselves under the 5-minute rule. And 
I will start with Mr. Fornaci.
    In terms of medical care in the federally run prisons, they 
are--we have heard they are accredited and there is oversight. 
And did I understand that you were saying there was not as much 
problem with the federally run prisons and medical care as 
there was with the private prison?
    Mr. Fornaci. Yes, that is correct.
    And I would say that, in terms of accreditation issues, 
those are things that generally happen at the opening of a 
facility and at certain intervals over a period of years.
    But our concern has been the sort of ongoing monitoring of 
problems as they arise. But, yes----
    Mr. Scott. The accrediting process does not contain ongoing 
oversight?
    Mr. Fornaci. It does, but I believe it is 3 to 5 years. 
Like the JCAHO process, I believe, is 5 years?
    Mr. Scott. Okay. And the private medical care is not under 
any accreditation?
    Mr. Fornaci. They are also JCAHO accredited. At the Rivers 
case, it was accredited at the time of its opening. I do not 
know whether they have been visited since then. That was in 
2001.
    Mr. Scott. Mr. Lewis, you indicated the value of faith. Is 
there any barrier to voluntary participation in faith-based 
volunteer programs?
    Mr. Lewis. There has been some anecdotal reports coming 
from volunteers that I have had an opportunity to talk to, that 
their access has been increasingly restricted due to the number 
of volunteers wanting to gain access to prison facilities at 
the Federal and State level.
    Mr. Scott. Okay. If you could provide us with some 
information on those, that would be helpful.
    And in terms of programs available to prisoners, Mr. Lewis, 
we hear most of the comments on getting the GED, which is 
absolutely critical. But some come in with close to a GED. But 
after they have gotten the GED, have you seen any benefit from 
those who continue their education on through college?
    Mr. Lewis. Not so much going through college. But there is 
evidence that folks who do get educational programming while in 
prison, that is, complete their GED, end up having better 
outcomes, better employment outcomes.
    Mr. Scott. Is that because you have not noticed the college 
participation, or because they cannot afford to get into 
college anymore?
    Mr. Lewis. It is a relatively low percentage of folks who 
actually go to college. A lot end up going to more sort of a 
community college, and then maybe a 4-year degree.
    Mr. Scott. Okay. And could you describe the program you 
mentioned that had a 50 percent recidivism rate reduction?
    Mr. Lewis. There were two studies that I mentioned. One was 
the InnerChange Freedom Initiative study. And----
    Mr. Scott. I am sorry. Could you speak up?
    Mr. Lewis. The InnerChange Freedom Initiative study is a 
program that is run by Prison Fellowship. This particular 
program was just outside of Houston in Sugar Land at the Carol 
Vance Unit.
    And the folks who graduated from the program were indeed 50 
percent less likely to be rearrested upon release, and 60 
percent less likely to be incarcerated during the 2-year 
follow-up period.
    Mr. Scott. And can you provide for the record a description 
of that program, so we will have that for the record?
    Mr. Lewis. Absolutely.
    Mr. Scott. Mr. Sady, you indicated that the 85 percent 
requirement for prior to--a minimum of 85 percent was not being 
effectively utilized, because of a mathematical calculation.
    Can you explain why that is the case?
    Mr. Sady. Yes. The Bureau of Prisons in 1988, basically 
took the position that good time should be calculated against 
time served, rather than the sentence imposed. The problem was 
that the Sentencing Commission had used the time against the 
sentence imposed, which is the 85 percent against the sentence, 
when they calculated the table for the imposition of sentences.
    So, that whole grid that every sentence is made on is 2 
percent higher based on their calculation.
    Further, the folks in Congress have basically said that it 
was, if you do 10 years, you are going to do 8.5. And so, the 
legislative history is full of this idea that it is an 85 
percent rule--the same rule that Congress required from States 
in their truth in sentencing legislation.
    However, because they used the other method of 
calculating--which I believe has no support anywhere except for 
they mistakenly thought that was what was required--has created 
the 87.2 requirement.
    Mr. Scott. And how could that be cured?
    Mr. Sady. I think that tomorrow morning, if Director Lappin 
issued a directive with a simple computer change, that could be 
solved tomorrow--no new legislation, no anything.
    Mr. Scott. The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    One quick question. A topic that has been coming up lately 
is over-criminalization, federalizing crime, over-criminalizing 
what would normally be civil violations.
    I am just curious if any of you had any opinions on what 
some of us think is the trend toward over-criminalizing 
conduct.
    Sure. Mr. Glover?
    Mr. Glover. We have seen closure. And I started in--this 
year, 207,000 inmates.
    A lot of this has to do with federalizing State crimes--
obviously, State and local crimes--for whatever reason, that 
was done through that period of time through the 1980's.
    They have pushed to do that, so that Federal prosecutors 
could get a bite at the apple.
    And so, the late--at the end of it--207,000 people in 
Federal prisons and at 86 percent staffed. [Off mike.]
    Mr. Gohmert. When you said, ``for whatever reason,'' it 
occurred to me back when I was a judge, and I would see 
campaign commercials that we are going to end burglary, we are 
going to--you know.
    And I laughed the first time I saw a commercial like that. 
And that is not their job. That is a State crime.
    But----
    Mr. Scott. Did they get elected?
    Mr. Gohmert. Yes. I mean---- [Laughter.]
    So, apparently, it was a popular thing. And that is why we 
have apparently federalized so many crimes.
    But now, I was a little shocked, Mr. Glover, at your 
insensitivity. You did not seem to want to give inmates the 
benefit of the doubt, that if the warden has teargas available, 
and an inmate starts to assault one of the guards, that the 
inmate would not give the guard a chance, if he asked to go get 
the teargas, to come back to protect himself. So, you need to 
work on your sensitivity somewhat, I think, there.
    But I did want to point out, too, having been to Gitmo a 
couple of times, apparently, there have been two to three dozen 
really innovative attacks with urine and feces when these guys 
are being so restricted. But as Khalid Sheikh Mohammed said, we 
are terrorists to the bone, you know, God be praised.
    Mr. Glover, your comment about two partners and high-risk 
housing areas seems to have a great deal of merit to it. So, I 
appreciate your bringing that up.
    I mean, police do that in high-risk areas. It makes sense. 
And I appreciate that comment.
    And as far as the privatization, yes, I am a Republican, 
and we do believe, you know, generally, privatizing some things 
are good. But I have always had concerns about privatizing 
certain things that really are governmental functions.
    If you can privatize what is inherently a governmental 
function in prisons, then perhaps we could privatize Congress, 
as well. And you all may be supportive of that.
    With regard to the RDAP--the RDAP, the drug and alcohol 
programs--I had seen reports that they are waiting until people 
have less than a year to stick them in those programs. Now, my 
experience as a judge, you can put somebody in a 30-day 
program, and under optimum situations, maybe they are better. 
But usually, it takes many months to change the behavior and be 
able to win that daily fight.
    Is that your experience, from any of you, observed people 
getting put in these programs with less than a year, which 
means they are not going to finish the programs?
    Mr. Sady. They generally have to be within 9 to 12 months 
of the completion of the program before going into 6 months of 
community corrections as part of the program--it is moved out 
quite a bit from there.
    The problem is that the decision and the eligibility 
determination is not being made until very late in the day, and 
not including the sentence reduction. So, there is this huge 
glut at the end, where people are on waiting lists and being 
bumped, instead of making the decision when the person comes 
in.
    They could make the eligibility decision. And then, if 
there is another facility, for example, where there are open 
spaces and they can make a more rational allocation of those 
scarce resources. And, because of the savings that you would 
get if you were able to get the full year for these non-violent 
offenders, they would be able to fund the classes necessary, so 
there are enough classes, so everybody can get in with enough 
time to complete the program, so it is not trying to cram 
something in at the end.
    Mr. Gohmert. Well, that is a really interesting point. 
Perhaps it could be----
    Mr. Scott. Would the gentleman yield?
    Mr. Gohmert. Yes, sure.
    Mr. Scott. And if people have a longer time to be in, what 
would that do to the idle hands, as the gentlelady from 
California was mentioning?
    Mr. Sady. This is a really excellent program. I have talked 
to hundreds of people who have come out of it. It has changed 
their lives. It is a 9-to 12-month residential program. And so, 
the participation is extremely intense and creates a documented 
reduction in recidivism.
    So, for that period of time, when they are headed for that 
as something that usually happens toward the end of their 
sentence, but with enough planning time so that they can get 
the full year off, I think that it would reduce idle time and 
is extremely productive for both the individual, their 
families, and for our society, because it lowers recidivism. 
They have documented it in the TRIAD report.
    Mr. Scott. Thank you.
    Mr. Gohmert. Well, I understand the thinking of the past, 
that you do not want to broadcast to an inmate that they will 
be going into a program at the end. What their thinking is, it 
ought to be a reward, you know. You conduct yourself 
appropriately, and then we will reward you by giving you one of 
these programs at the end.
    But that doesn't seem to have worked very well. And it does 
seem like a great thing could be done to say when people are 
assessed coming in, ``Wow, you have got a bad drug problem. 
This will be what you do the last year of your time.''
    Now, of course, if you act up, you know, do something, it 
seems like you could go ahead and give them something to shoot 
for at the beginning.
    Mr. Sady. You are exactly right, because that is how it 
operated until the last few years.
    Mr. Gohmert. Oh, is that right?
    Mr. Sady. It worked perfectly that way. That is why there 
has been a decrease in the amount, because at the beginning of 
the program, many people were being determined very early. They 
were finishing the residential part, and then they had a 
transitional period before they started the community 
corrections.
    So, it was working with the full year. But we have been 
seeing that average length of the sentence reduction tanking at 
a time when we should be trying to lower the growth, so that we 
do not have these ratios that are dangerous to correctional 
officers and to prisoners.
    Mr. Gohmert. I know my time has expired. Could I ask one--
--
    Mr. Scott. We are going to have a second round.
    Mr. Gohmert. Okay.
    Mr. Scott. Do you want to go now?
    Mr. Gohmert. Because I just had this one last question.
    But it was regarding, Mr. Lewis, about the, you know, the 
cuts in recidivism. It seemed, from my experience in dealing 
with State prisons in Texas, that a great deal of the success 
came through the follow up, the mentoring, the visits after--
well, like in AA or NA, that accountability after leaving 
confinement.
    But I had understood that there had been some difficulties 
in faith-based mentors being able to have access. Are you 
familiar with that at all?
    Mr. Lewis. I am familiar with the finding that it is very 
important that, to sustain the success that we have while in 
prison, that there be adequate after-care in the community 
upon----
    Mr. Gohmert. But as far as the lack of access to being able 
to mentor or have contact after release, are you familiar with 
that problem at all?
    Mr. Lewis. After release, no. It was more so during 
release. I can look into that.
    Mr. Gohmert. After release is what I had understood.
    Okay. Thank you.
    Thank you, Chairman.
    Mr. Scott. Thank you.
    Mr. Glover, you, in mentioning the paper spray, we 
obviously want to be helpful. But my initial reaction is that 
Congress really is an inappropriate place to make decisions 
like that.
    Is there any accreditation or board, or some professional 
people, that can look at questions like this and make 
recommendations?
    Mr. Glover. Unfortunately, Mr. Chairman, you saw the chair 
of the ACA board. So, they are the accreditation group for 
Federal prisons and State prisons.
    The only thing that we can do is appeal to the Department 
of Justice, A.G. Holder, and ask him to change his policies----
    Mr. Scott. Well, I mean----
    Mr. Glover [continuing]. Come to you.
    Mr. Scott. Are there--I mean, are there professional 
committees that look at this to determine what is the most 
professional way to equip guards, without having the decisions 
be made on an ad hoc, political basis?
    Mr. Glover. I do not know of any, Mr. Chairman. All I know 
is how many of the big State systems already provide this to 
their staff. They provide a stab-proof vest in California. They 
have some staff carry Tasers. Some carry pepper spray. 
Florida----
    Mr. Scott. Has there been any--has there been any 
independent evaluation of which works best for the security of 
the prison?
    Mr. Glover. Not to my knowledge.
    Mr. Scott. You mentioned the Federal Prison Industry jobs 
and suggested that some could be made for disaster relief, the 
problem being, if you gave it away, you would not have the 
income stream necessary to support FPI, because there is no 
appropriation for FPI. Once you get--decades ago, you got 
started. And after that, you are on your own.
    Could FEMA or someone buy blankets and other kind of 
disaster equipment to help supply a number of jobs and to have 
an outlet for the goods and services?
    Mr. Glover. I have no doubt, in the discussions that I have 
had with Mr. Laird, that they are looking for any type of work 
that will make sure that they pay the staff--they can pay their 
staff and benefits. They cannot lose money on the item. That 
would be the only concern that I know of.
    But we already make some mattresses for the institutions. 
We make some other material--sheets, other things--for the 
institutions. So, to expand those projects I do not think would 
be a huge burden.
    Mr. Scott. And finally, you indicated that your 
organization has taken a position on sentencing policy. I did 
not hear a mention of mandatory minimums. Have you taken a 
position on mandatory minimums?
    Mr. Glover. We have not specifically taken a position on 
mandatory minimums, but we know that they have been responsible 
for much of the increase---- [Off mike.]
    We have looked at H.R. 61, for instance, that---- [Off 
mike.]
    The only problem with some of the bills that we could see 
is that it leaves the discretion to the bureau warden or the 
bureau director to release the inmates. We do not think, 
politically--I mean--talking--that many wardens or many 
administrators within the system will release inmates early, if 
it is a judgment call, due to the fact that, if something 
happens on the outside, it is going to come right back to them.
    I think that would be a difficulty. There needs to be some 
sort of panel, commission, something, to run those decisions 
through as far as we are concerned.
    Mr. Scott. You had a list of physicians you had taken. If 
you could provide us with the entire list of physicians you 
have taken--alternatives, we would appreciate it for the 
record.
    The gentlelady from Texas?
    Ms. Jackson Lee. Chairman, thank you very much. And let me 
apologize for my delay, but also moving in front of you, Mr. 
Chairman, for trying to get some materials. But I do thank you 
for this hearing.
    And I just want to focus on one line of questioning. And I 
believe it is to Mr. Fornaci? Thank you.
    And I am sure it was in your testimony, so please forgive 
me as I review it subsequently.
    I have a detention center, a Federal detention center, in 
my congressional district, actually, in downtown Houston and, 
of course, a large population, Federal population, a series of 
prisons going out toward Beaumont and then into Louisiana. So, 
geographically, we are well endowed with Federal prisons in the 
Gulf region.
    We know that we have been under the burden of mandatory 
sentencing for a long period of time. And I have been working 
for at least 7 years consistently on something called good time 
early release.
    Having visited the Federal prisons, and knowing that many 
of the individuals there are incarcerated for drug offenses--it 
may be that they had little or none. It may be that they were 
wrapped up or rounded up in a conspiracy.
    And the premise of my legislation has been--or the theory 
behind it has been--non-violent offense, good time, or well-
behaved, if you will, whatever the good time criteria is, and 
that these individuals have the opportunity for early release.
    Has your--have you been engaged or have any sense of that 
kind of challenge, meaning the overcrowding of prisons, because 
people are in on mandatory sentencing and something that would 
be in place called early release for good time?
    Mr. Fornaci. I think, actually, I think I would turn to Mr. 
Sady, who I think is more familiar with these issues. But we 
certainly would support the goals of that legislation.
    Mr. Sady. As a first step, we have been asking that the 85 
percent that is already permissible under the statute be 
provided, because at this point, the Bureau of Prisons' own--
even the best behaved prisoners are required to serve 87.2 
percent.
    So, it would certainly be a step in the right direction, 
and it is a direction that I agree is one that should be 
continued to be explored to avoid unnecessary incarceration for 
folks, especially non-violent offenders, who have available 
programs, or reductions of sentence that are not being fully 
implemented by the Bureau of Prisons at this time.
    Ms. Jackson Lee. Well, let us explore that further. Let us 
not just say it randomly, as if I am an expert in what you are 
an expert in.
    So, start again. You are saying there is a requirement, or 
this is the administrative requirement of the Bureau of 
Prisons----
    Mr. Sady. Yes----
    Ms. Jackson Lee [continuing]. To serve 80----
    Mr. Sady [presiding]. 87.2 percent, rather than the 85 
percent that is permitted by the statute.
    Ms. Jackson Lee. And what do you determine is the basis of 
that?
    Mr. Sady. That is because the statute, I believe, was 
written to allow 54 days against every year of the sentence 
imposed.
    Ms. Jackson Lee. I understand. What is the basis of the 
prison holding people on 87 percent, on extra time?
    Mr. Sady. The extra time is a result----
    Ms. Jackson Lee. Do they just like them? They have become 
family, and they just do not want to see them go? [Laughter.]
    Mr. Sady. In 1988, a Bureau of Prisons lawyer looked at the 
statute and misread it to say that it required time to be 
calculated against time served, not the sentence imposed, which 
creates a 7-day disparity for every year of the sentence 
imposed, which is why we are spending $981 million to 
incarcerate people for 36,000 years that I do not believe 
Congress ever authorized or intended.
    And that is what----
    Ms. Jackson Lee. Well, it looks like we have a roundtable, 
a pen in hand or pencil in hand--pencils always seem to get 
things done a little better--pencil in hand calculating to do, 
because it looks like we have possibly--so, then, give me my 
immediate solution. Is this a petition to Mr. Lappin, or to 
recalculate the 85 to 87 percent?
    Mr. Sady. The courts have been in some disarray about how 
to read this. But they have basically said that it was 
ambiguous, and then deferred to the Bureau of Prisons. That 
means that the Bureau of Prisons has discretion.
    If the Bureau of Prisons has discretion, why in the world 
would they take away 7 days of credit for every year that 
Congress said they could obtain as a reward for good conduct?
    Ms. Jackson Lee. And what we are discussing here are 
clearly, only to those who have engaged in good conduct. So, we 
have a precedent. We have a record that we can address. Is that 
not correct, that the Bureau of Prisons could look at a clear 
record of that individual, and they had to have good conduct? 
Is that correct?
    Mr. Sady. Absolutely. Without the good conduct, you do not 
get those days.
    Ms. Jackson Lee. And does it also include or assess the 
original conviction, whether it was for non-violent acts? Does 
it include that? Or does it include individuals who are non-
violent, as well?
    Mr. Sady. Unlike about four of the other programs that I 
described, this is for all prisoners who have received a term 
of imprisonment, over 1 year. That is 95 percent of the prison 
population, of all----
    Ms. Jackson Lee. So it does not----
    Mr. Sady. Okay.
    Ms. Jackson Lee. It does not account for what kind of 
conviction it was.
    Mr. Sady. Yes. That is unlike, for example, the residential 
drug abuse treatment 1-year incentive, which is for non-violent 
offenders; the boot camp, which would be for non-violent 
offenders; the Second Look compassionate release, which would 
be for people who have extraordinary and compelling 
circumstances. Those are all more oriented toward that type of 
criteria.
    This is more like the Second Chance Act, which is one that 
affects every prisoner, because, as we heard before, everybody 
gets out, so they need those kinds of programming. And those 
kinds of programming can result in less incarceration expense, 
simply by fulfilling what Congress intended, when you double 
the amount of time of mandatory consideration of community 
corrections with the Second Chance Act, for example. Or when 
you allowed for 85 percent of good time against the sentence 
imposed for all prisoners.
    Ms. Jackson Lee. Well, it looks as if--if I can just pursue 
this line of reasoning, Mr. Chairman, just a little bit more--
it looks as if we have an opportunity to cut costs, because 
these individuals, if this was revisited by the Bureau of 
Prisons, could be out, because you have cut that 87 to 85. So, 
that does get us a large net of individuals that might be able 
to come out, be released.
    We passed the Second Chance Act, which many of them would 
be funneled into. And in your capacity as defense counsel, 
public defender, would you calculate that the costs would be 
less than continuing to incarcerate these individuals?
    Mr. Sady. Absolutely.
    Ms. Jackson Lee. Would you also include that some of these 
people are aging and are creating an added financial burden on 
the Federal Bureau of Prisons?
    Mr. Sady. Yes, especially the Second Look statute, that 
aimed for somebody who has a stroke, for example, and is no 
danger to anyone. But there is no mechanism to get that case 
back in front of a judge to decide, now, on the second look, 
what sentence is sufficient, but not greater than necessary to 
serve the purposes of sentencing.
    And all of this serves not only to reduce waste, but it 
also is a safety issue for both correctional officers and 
inmates. Inmates care about the ratios also, because they want 
to be in a safer place.
    Ms. Jackson Lee. Well, let me just finish on this last 
question so I can understand.
    Is there a court decision that is now in place that would 
bar, or that the Bureau of Prisons would argue, oh, we have got 
this court decision, so we cannot do an administrative review, 
which is what I believe is possible to do.
    Because you mentioned that the courts are confused. But is 
it not clean enough for the Bureau of Prisons--obviously, in 
consultation with the Department of Justice and the new 
attorney general, who has shown himself to be broadly talented 
and open-minded on new concepts of criminal justice.
    The question is, are you suggesting that there is a case 
that is barring this consideration?
    Mr. Sady. Absolutely not. I believe that the statute at 
worst is ambiguous. If it is ambiguous, that means that the 
courts have been saying that the agency can construe it. As a 
litigator, I am arguing that they should not be able to do it, 
that the statute says what it says, and it has to be 85 
percent.
    But the courts, in general, are saying it is ambiguous. 
That means that the agency can say, tomorrow morning, ``No. We 
are going to count our good time against the sentence 
imposed,'' as, for example, then-Senator Joseph Biden said when 
he described the statute. He said, on a 10-year sentence, you 
will have to serve at least 8.5 years.
    And the Bureau of Prisons is saying that he was wrong. And 
I think it is perfectly sensible tomorrow for Director Lappin 
to say----
    Ms. Jackson Lee. Eighty-five percent on the sentence 
imposed versus----
    Mr. Sady. Eighty-five percent on actual time, which takes 
us--what they call an arithmetically complicated formula that 
nobody can understand. But it eventually comes down to 7 days 
less.
    Ms. Jackson Lee. Well, Mr. Fornaci, you referred me. So, 
the only thing I want from you is that--you sound like you are 
the man that is dealing with civil rights. Does this sound like 
a just and right thing to do?
    Mr. Fornaci. Absolutely, yes.
    Ms. Jackson Lee. All right.
    Mr. Lewis, you look like you wanted to say something. But 
if you do not, that is all right. And I will----
    Mr. Lewis. My caution would be that there are social costs 
to consider. When we think about reducing sentences of non-
violent offenders, we have to think very carefully about what 
we mean by ``non-violent.''
    I know that there is an ongoing----
    Ms. Jackson Lee. And what is--I am sorry. I called on you 
probably by mistake. [Laughter.]
    You represent whom?
    Mr. Lewis. I am with ICF International. And I have done----
    Ms. Jackson Lee. It is a private prison?
    Mr. Lewis. No, it is a consulting firm that has done 
research and evaluation on faith-based prisons.
    Ms. Jackson Lee. All right. Well, let me just say this, and 
I will not cut you off. You made your opening comment.
    I think the very fact that we have in place the Second 
Chance Act, the opportunities for faith-based organizations, we 
need to put them to work. And we certainly would be cautious in 
the direction that we would take, and I hope that we would be.
    But I think I am trying to get to the core of the legal 
argument. And we certainly would not violate I think what you 
were about to say to me, which is to make sure that we do this 
in a proper and appropriate way. And your organization would 
probably be one that would certainly be included in this.
    Mr. Chairman, I am very happy to yield back. Thank you.
    Mr. Scott. Thank you.
    And I would like to thank all of our witnesses for their 
testimony today.
    Members may have additional written questions, which we 
will forward to you and ask that you answer as promptly as 
possible, so that your answer can be made part of the record.
    And witnesses have indicated that there is certain 
information that will be forthcoming. We would appreciate if 
that would--that information would come as promptly as 
possible, so it also could be made part of the formal record.
    The hearing record will remain open for 1 week for the 
submission of additional materials.
    And without objection, the Subcommittee stands adjourned.
    [Whereupon, at 12:39 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    The Judiciary Committee's oversight of the Federal Bureau of 
Prisons plays a major role in ensuring that the Bureau is effective.
    This responsibility has become even more important over the past 
decade, in light of the substantially diminished oversight role that 
courts have over our Nation's jails and prisons since the enactment of 
legislation such as the Prison Litigation Reform Act.
    Tasked with the critical responsibility of incarcerating more than 
205,000 inmates, the Bureau is making a concerted effort to carry out 
its work in the most professional and safe manner.
    Nevertheless, there are areas where the Bureau should improve. Let 
me explain at least three concerns that I believe it needs to address.
    First, I am concerned about the quality of medical services 
provided by the Bureau to Federal inmates.
    Based on the findings of an audit released by the Justice 
Department's Inspector General in 2008, there are serious problems--and 
possible Constitutional violations--in the way medical services are 
provided.
    Federal prison inmates and their advocates have long called for 
improvement in this area.
    The audit revealed poorly administered medical services that often 
failed to comply with Bureau policy, and put inmates unnecessarily at 
risk.
    In addition, the audit concluded that Bureau facilities did not 
consistently provide preventative care as required by Bureau policy.
    And it revealed that the Bureau has failed to provide even basic 
medical services to some inmates, such as monitoring prisoners with 
serious chronic health conditions.
    And these problems are not new to the Bureau, as past reviews have 
cited many of these same deficiencies in prisoner health care.
    Even more disturbing, the Bureau has failed to issue any Bureau-
wide recommendations to address these problems.
    Accordingly, I want to hear from the Director today exactly what 
efforts the Bureau has taken, or is planning, to respond to these 
systemic problems.
    The failure to maintain adequate medical care for inmates poses a 
serious public health risk--and not only to the prisoners, but also for 
those who work there, and for all of us.
    For example, the audit found that the Bureau failed to provide 
sufficient preventive care such as giving measles, mumps, and rubella 
vaccinations as required by Bureau guidelines.
    As prison staff interact with inmates, and as inmates re-enter 
communities each year, the Bureau's failure to provide proper 
preventive health care has serious public health consequences both 
inside and outside the Federal prison walls.
    Second, there are increasing safety concerns about the working 
conditions at Bureau institutions because of under-staffing by 
correctional officers and inmate overcrowding.
    Representative Cardoza will discuss an incident that occurred at 
the Atwater, California Federal prison, where Correctional Officer Jose 
Rivera was stabbed to death by two prison inmates while locking 
prisoners in their cells during the evening.
    The growing inmate population necessitates that precautions must be 
taken to ensure the safety and security of prison employees.
    I want to hear how Director Lappin plans to prevent incidents like 
this from happening again, and what policies are now in place to keep 
correctional officers and staff safe.
    One way to provide greater protection to prison guards is to give 
them protective vests that can be worn under their uniforms. Although 
the Bureau is authorized to issue these vests, they apparently are not 
sufficiently available to correctional officers.
    Another way to maintain safety and security would be to increase 
staffing levels at Bureau facilities.
    The 34,000 Federal correctional officers and staff who work at 
Bureau prisons around the Nation deserve to be safe as they conduct the 
work of the Bureau.
    However, the current BOP inmate-to-staff ratio of 4.9 inmates to 1 
staff member leaves me concerned about the safety of officers and 
staff.
    Finally, I'd like to discuss the use of private prisons by the 
Bureau. According to recent estimates, approximately 18% of Bureau 
inmates are detained in private prisons. Most, if not all, of these 
individuals are immigration detainees.
    While I know private prison companies claim their facilities reduce 
the government's cost of housing prisoners, I'd like to hear whether 
the Bureau has any evidence substantiating that claim.
    For example, the Government Accountability Office found in 2007 
that the Bureau did not gather enough information from the private low- 
and medium-security prisons to determine whether contracting with them 
had resulted in any true savings.
    Also, a 2001 Justice Department report concluded that the average 
savings from contracting with private prisons was only about one 
percent, and that most of these savings were achieved through paying 
less in prison official and staff salaries--which means either cutting 
the pay of corrections officers, or reducing staffing levels.
    I would seriously question whether either of those is a prudent 
course of action.
    I thank Chairman Bobby Scott for holding this important oversight 
hearing, and I look forward to hearing more from Director Lappin and 
the other witnesses about how we can address my concerns.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Mr. Chairman, I ask for leave to extend my remarks for the record. 
Mr. Chairman, I salute your leadership in convening this important 
hearing to fulfill our duty to oversee the Federal Bureau of Prisons. I 
would like to thank our distinguished witnesses, the Honorable Dennis 
Cardoza of California's 18th District; Harley G. Lappin, Director, 
Federal Bureau of Prisons; Reginald A. Wilkinson, President & CEO, Ohio 
College Access Network; Philip Fornaci, Director, DC Prisoners' 
Project, Washington Lawyers' Committee for Civil Rights & Urban 
Affairs; Richard A. Lewis, Senior Manager, ICF International; Stephen 
R. Sady, Chief Deputy Federal Public Defender, Portland, Oregon; and 
Phil Glover, Legislative Coordinator, the American Federation of 
Government Employees, Johnstown, PA. I look forward to your 
testimonies.
    As of last Thursday at 12 p.m., there were 206,895 people 
incarcerated in Federal prisons. Prisoners are disproportionately from 
minority communities. According to the Bureau of Prisons, the inmate 
population of Federal prisons is comprised of 57.2% Whites, 39.3% 
Blacks, 1.8% Native Americans, and 1.7% Asians. Furthermore, according 
to the Bureau of Justices Statistics an estimated 32 percent of black 
males will enter prison during their lifetime, at current rates, 
compared with 17 percent of Hispanic males and 5.9 percent of white 
males.
    Most inmates come from emotionally, socially, morally, 
intellectually or financially deprived environments. Criminal behavior 
is often an adaptive response to these negative influences. The 
criminal subculture reflects social relationships defined by and 
heavily invested in the criminal values that are used by criminals to 
manipulate or control their environment in lieu of normal more 
productive values.
    The treatment of prisoners in the United States reflects greatly on 
the values of our nation. It is important that prisoners are treated in 
the most humane way as possible. Even though prisoners are deprived of 
liberty, they are still entitled to basic human rights. They are often 
deprived of very basic human rights such as access to proper medical 
attention and education. In most states convicted felons are not 
allowed to vote from prison; in twelve states, felons are 
disenfranchised for life. The result of that is disproportionately 
meager electoral representation. Legislative efforts should be made to 
allow prisoners the right to vote while incarcerated. Although they are 
incarcerated, they are still Americans. Because of the high 
incarceration rate of minorities their voices are ignored at a great 
number.
    While incarcerated, prisoners deserve rehabilitation services such 
as education, job training and counseling. Legislative efforts need to 
be made to provide drug treatment for abusers instead of incarceration. 
Drug policy should emphasize treatment over criminalization. Also there 
needs to be alternatives to prison for non-violent offenders, thus 
eliminating prison overcrowding. This Congress, I introduced 
legislation to address these issues, specifically, H.R. 245 Drug 
Sentencing Reform and Cocaine Kingpin Trafficking Act of 2009 and H.R. 
61 The Second Chance Act of 2009.
    Once released, many prisoners lack job skills and face employers 
who are not willing to hire former convicts. These factors contribute 
to widespread unemployment in minority communities, causing them to 
resort back to the criminal lifestyle. Additionally because no true 
rehabilitation took place while incarcerated the results are high 
recidivism rates.
    Equally those that are entrusted with the care and supervision of 
prisoners should likewise be treated with the utmost respect. The 
negative environment in which correctional officers work has a very 
negative impact upon their personalities and their behavior. This 
situation is similar to the dilemma inmates find themselves in.
    Law enforcement and corrections generally reflect the adaptive 
response of society to the impact of criminal behavior on its 
environment. That collective response forms the correctional culture. 
The culture then embodies the problem just as criminal values embody 
and institutionalize their own deficiencies.
    The negative environment in the prisons has a corrosive influence 
on correctional staff. We must realize that crime is often an adaptive 
response to the environments in which certain individuals find 
themselves. Next we must look critically at what caused the problems in 
their environments. Then we need to look at what changes need to be 
made to solve the problem, not adapt to it. Unfortunately that is not 
an overnight process.
    When we start to look at the process of reforming prisons we will 
see that the process of rehabilitating inmates will look strangely 
similar to reformation for correctional officers. In many ways, the 
inmates and the correctional staff are all in the same boat. It makes 
no sense to fight over who we should throw overboard to lighten the 
load without addressing the leaks that are sinking the boat.
    Those leaks consist of inadequate drug rehabilitation, job training 
and limited educational opportunities for inmates and understaffing, 
low wages, long hours, inadequate safety and competition from privately 
owned prisons for correctional officers. There has to be a healthy 
medium where Federal prisoners are treated fairly and Federal prisons 
are ran in a safe, efficient and effective manner.
    My District, the 18th Congressional District in Texas, has had its 
share of problems with Federal Bureau of Prison facilities. According 
to the Houston Chronicle, Houston's Federal Detention Center has seen a 
spike in the number of violent inmates over the past 10 years. In 
Houston, the downtown facility houses around a 1,000 inmates. 
Overcrowding has always been an issue with detention as these 
facilities continue to house more and more inmates.
    The budget crisis gripping the Federal Government has increased the 
problem confronting our Federal prison system. To reduce costs over the 
past three years, the Federal Bureau of Prisons closed prison camps and 
eliminated more than 2,300 positions. Federal prison workers also say 
that inmate crowding and staffing shortages are among the reasons for 
an increasingly violent U.S. prison system. There are 10 serious 
prisoner assaults and nearly two serious staff assaults per 5,000 
inmates in the 114-prison system reports the Houston Chronicle.
    These figures are a clear sign that the major steps need to be 
taken to change the security situation at the Federal Detention Center 
in Houston and in our Federal prisons around the country. According to 
the Pew Study ``For the first time in history more than one in every 
100 adults in America are in jail or prison--a fact that significantly 
impacts state budgets without delivering a clear return on public 
safety.''
    When we start to look at the process of reforming prisons we will 
see that the process of rehabilitating inmates will look strangely 
similar to reformation for correctional officers. In many ways, the 
inmates and the correctional staff are all in the same boat. It makes 
no sense to fight over who we should throw overboard to lighten the 
load without addressing the leaks that are sinking the boat. Those 
leaks consist of inadequate drug rehabilitation, job training and 
limited educational opportunities for inmate and understaffing, low 
wages, long hours and improper safety for correctional officers.
    Another issue compounding the challenges facing the Federal prison 
system is the government's practice of housing inmates in privately 
owned facilities. The private prison industry has a sordid past, dating 
from the turn of the century when inmates were handed over to private 
businesses under the ``convict lease'' system, primarily in the South. 
Abuses by private prison firms--abuses that used inmates for forced 
labor, including a high rate of prisoner deaths--led government 
agencies to abandon the concept of for--profit incarceration.
    The industry revived in the early 1980s due largely to tough-on-
crime sentencing laws and the war on drugs, which resulted in a large 
increase in the prison population. A number of companies were formed to 
capitalize on the developing market for housing inmates, including the 
industry leader, Corrections Corp. of America (CCA), the industry's 
second-largest firm, GEO Group (previously known as Wackenhut 
Corrections), and Cornell Corrections, MTC, Civigenics and various 
other smaller companies.
    Today, approximately 8% of state and Federal prisoners are held in 
privately-operated facilities, totaling over 126,000 inmates. 
Government agencies contract with private prison companies for several 
reasons, primarily anticipated cost savings and a need for additional 
bed space. However, there are a number of negative factors related to 
private prisons that should be considered, including the following: 
Staff Turnover Rate Staffing costs account for about 80% of operational 
expenses for prisons whether they are public or private.
    Thus, one of the main ways that private prison companies reduce 
costs so as to increase their profit margins is by cutting staffing 
expenses. This is typically done by staffing private prisons with fewer 
employees than in the public sector, paying lower wages, offering fewer 
or less costly benefits, providing less training, and leaving unfilled 
positions vacant for extended periods of time. Due to these factors, 
private prisons tend to have much higher staff turnover rates.
    According to the last self-reported industry statistics from 2000, 
the public prison turnover rate was 16% while the private prison staff 
turnover rate was 53%. Higher turnover rates mean less experienced 
staff and thus greater instability in privately-operated prisons. 
Several studies have shown that privately-operated prisons experience 
higher rates of inmate-on-inmate violence, including a 2004 article in 
the Federal Probation Journal that found private prisons had more than 
twice as many inmate-on-inmate assaults than in public prisons, and a 
2001 Bureau of Justice Assistance report that found private prisons had 
50% more inmate-on-inmate assaults and almost 50% more inmate-on-staff 
assaults than in public prisons with comparable security levels.
    Private prison firms are accountable to their shareholders, not to 
the public, and add a layer of secrecy when citizens want to learn 
about problems or misconduct at privately-operated facilities. In 2008, 
CCA general counsel Gus Puryear admitted that CCA did not disclose 
detailed audit reports to contracting government agencies. In response 
to a question from Senator Dianne Feinstein he stated, ``we did not 
make customers aware of these documents.''
    Because companies like CCA and GEO Group are private entities, they 
are not covered by the Federal Freedom of Information Act (FOIA) or 
most state public records statutes. Private prison companies have a 
documented history of concealing information from the public, 
including, in some cases, internal prison policies that are available 
to inmates in private prisons but not to members of the general public.
    Although private prison companies claim they can save government 
agencies up to 30%, only minimal savings if any have been documented. 
According to a comprehensive 1996 General Accounting Office (GAO) 
report that reviewed five private prison studies, cost savings 
resulting from prison privatization were inconclusive. It is difficult 
to obtain an ``apples to apples'' comparison of public and private 
facilities due to a number of factors. For example, public prison 
systems have higher costs because they house maximum security, death 
row and female prisoners, who cost more to incarcerate. Few private 
prisons house such inmates.
    Also, private prison companies have a record of ``cherry picking'' 
prisoners with few medical or mental health problems, which passes the 
costs associated with housing such inmates to the public prison system. 
Further, in some cases private prison companies have a cap on the 
medical expenses they must pay for prisoners, with medical costs above 
the cap paid by the public prison system. These factors, as well as 
other costs such as monitoring and oversight of private prisons by 
public prison officials, make it hard to determine the costs savings, 
if any, that are achieved through privatization.
    The private prison industry relies on a number of allies and 
research studies to justify its claims of cost savings and proficiency; 
however, most of these sources have industry connections or vested 
financial interests. For example, the Reason Foundation, a strong 
proponent of prison privatization, has received funding from private 
prison firms. The American Correctional Association (ACA) receives 
sponsorship money from CCA and other private prison companies for its 
bi-annual conferences, and receives additional payments for accrediting 
private prisons.
    As more and more stories are revealed of the horrific treatment of 
prisoners both within the Federal prisons and contracted prisons 
emerge, it is imperative that we hold these facilities accountable. 
Concerns about internal problems within private prisons have been 
raised by a myriad of organizations and even Representatives from 
within this Congress. One such organization, the Private Corrections 
Institute, recently voiced its concerns stating, ``there are more 
safety concerns and more escapes in private prisons where guards are 
not well trained, are poorly compensated, and where this is rapid 
turnover of personnel.''
    Mr. Chairman, because we are sending our Federal prisoners to these 
private facilities, there must be some sort of mechanism with the 
capability of holding them up to the same Federal standards mandated to 
Federal prisons and correctional facilities. It is our obligation to 
know under what conditions Federal prisoners are living, whether they 
are living in a privately-owned facility or a government-owned 
facility.
    This hearing is an important step toward guaranteeing that Federal 
prisoners--whether they are housed in a government-owned facility or in 
a privately-owned facility contracted by the government--be treated the 
same. We can not allow the great city of Houston to be tainted by the 
problems of the Harris Federal Detention Center, nor can our nation 
afford to pay for prisons elsewhere that are neither reforming inmates 
nor reducing crime. The citizens of my district deserve better and the 
rest of the nation does as well. Thank you, Mr. Chairman. I yield back 
the balance of my time.

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
